No.

31n Cfje

Supreme Court of tlje ©ntteb States
Greg Elofson,
Petitioner,
V.

Stephanie Bivens,

et al..,
Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
APPENDIX

Greg Elofson
14140 Moorpark St., #410
Sherman Oaks, CA 91423
415.744.4159
greg. elofson@gmail. com

APPENDIX:
Opinion of the United States Court of Appeals
for the Ninth Circuit, dated August 8,
2019....................................................................

A1

Order of the United States District Court,
Norther District of California, San Jose
Division, entered July 6, 2017................

A5

Order of the United States District Court,
Norther District of California, San Jose
Division, entered February 13, 2017....

A19

Statutes

A64

A1
FILED AUG 8, 2019
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 17-16538
D.C. No. 5:15-cv-05761-BLF
GREG STEVEN ELOFSON,
Plaintiff-Appellant,
v.
STEPHANIE BIVENS; et al.
Defendants-Appellees.
MEMORANDUM*
Appeal from the United States District Court
for the Northern District of California
Beth Labson Freeman, District Judge, Presiding
Submitted August 6, 2019**
Before: GOODWIN, LEAVY, and SILVERMAN,
Circuit Judges.
Greg Steven Elofson appeals pro se the district
court’s judgment dismissing Elofson’s action alleging
that defendants violated his constitutional rights

* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

A2
under 42 U.S.C. § 1983, the Racketeer Influenced
and Corrupt Organizations Act (“RICO”), 18 U.S.C. §
1961 et seq., and other federal and state laws in
connection with the guardianship and
conservatorship of his father and a related statecourt action. We have jurisdiction under 28 U.S.C. §
1291. We review the district court’s dismissal de
novo. Ranza v. Nike, Inc., 793 F.3d 1059, 1068 (9th
Cir. 2015) (personal jurisdiction); Porter v. Osborn,
546 F.3d 1131, 1136 (9th Cir. 2008) (qualified
immunity). We may affirm on any ground supported
by the record. Johnson v. Riverside Healthcare Sys.,
LP, 534 F.3d 1116, 1121 (9th Cir. 2008). We affirm.
The district court properly rejected Elofson’s
argument that RICO confers personal jurisdiction
over Dougherty-Elofson, Bivens, Theut, and
McCollum because Elofson failed to allege facts
showing “that there is no other district in which a
court will have personal jurisdiction over all of the
alleged coconspirators.” Butcher’s Union Local No.
498, United Food & Comm. Workers v. SDC Inv.,
Inc., 788 F.2d 535, 538-39 (9th Cir. 1986); see 18
U.S.C. § 1965(b).
Dismissal of the claims against Scaringelli was
proper because Elofson failed to show any basis for
the court to extend personal jurisdiction over him.
See Ranza, 793 F.3d at 1068 (personal jurisdiction
comports with due process only if the defendant has
“minimum contacts with the forum state such that
the maintenance of the suit does not offend
traditional notions of fair play and substantial
justice” (citation and internal quotation marks
omitted)); Butcher’s Union Local No. 498, 788 F.2d
at 538-39.

A3
The district court properly determined that
Mudd was entitled to qualified immunity because
Elofson failed to allege facts showing that Mudd
violated his clearly established constitutional rights.
See Pearson v. Callahan, 555 U.S. 223, 232 (2009)
(government officials are entitled to qualified
immunity where there is no violation of plaintiffs
constitutional right or the right at issue was not
“clearly established” at the time of the alleged
violation); see also Porter, 546 F.3d at 1137 (“[Ojnly
official conduct that ‘shocks the conscience’ is
cognizable as a due process violation.” (citation
omitted)).
In concluding that Elofson lacked standing to
bring claims against Mudd on his father’s behalf, the
district court did not err in taking judicial notice of
orders filed by the Arizona probate court. See Lee u.
City of Los Angeles, 250 F.3d 668, 689 (9th Cir. 2001)
(“A court may take judicial notice of ‘matters of
public record’ without converting a motion to dismiss
into a motion for summary judgment.”). The record
does not support Elofson’s contention that the
district court improperly relied on Mudd’s
declaration in dismissing the claims.
We reject Elofson’s contention that dismissal of
the claims against Mudd violated Elofson’s Seventh
Amendment jury right.
The district court did not abuse its discretion in
dismissing without leave to amend because Elofson
could not cure the deficiencies in his complaint. See
Lopez v. Smith, 203 F.3d 1122, 1130 (9th Cir. 2000)
(en banc) (leave to amend should be given unless the
deficiencies in the complaint cannot be cured by
amendment).

A4
We do not consider matters not specifically and
distinctly raised and argued in the opening brief. See
Padgett u. Wright, 587 F.3d 983, 985 n.2 (9th Cir.
2009) (per curiam).
Scaringelli’s pending request for judicial notice of
the Arizona probate court docket (Docket Entry No.
49) is GRANTED.
AFFIRMED.

A5
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
Case No. 15-cv-05761-BLF
GREG STEVEN ELOFSON,
Plaintiff,
v.
STEPHANIE MCCOLLUM
Defendant.
ORDER GRANTING DEFENDANT
MCCOLLUM’S MOTION TO DISMISS
WITHOUT LEAVE TO AMEND
[Re: ECF 153]
The last defendant remaining in this action,
Stephanie McCollum, seeks dismissal of the
operative first amended complaint (“FAC”) pursuant
to Federal Rules of Civil Procedure 12(b)(1) and
12(b)(2) for lack of subject matter jurisdiction and
lack of personal jurisdiction, respectively. After
completion of briefing, the Court issued an order
submitting the motion without oral argument and
vacating the hearing which had been scheduled for
June 29, 2017. Order Submitting Motion Without
Oral Argument, ECF 160. For the reasons discussed
below, the motion to dismiss is GRANTED
WITHOUT LEAVE TO AMEND.

A6
I. BACKGROUND
Plaintiff Greg Steven Elofson (“Elofson”),
proceeding pro se, filed this action to challenge
Arizona state court orders relating to the
guardianship and conservatorship of his father, Milo
Elofson (“Milo”).1 The underlying facts are wellknown to the parties and the Court and need not be
recited in full here. In brief, the operative FAC
alleges misconduct by several persons who either
participated in Milo’s Arizona guardianship and
conservatorship proceedings or honored orders
issued in those proceedings. See FAC, ECF 29. The
defendants include: Milo’s step-daughter, Pam
Dougherty-Elofson (“Dougherty-Elofson”); Elofson’s
former attorney, Stephanie Bivens (“Bivens”); Milo’s
court-appointed attorney, Paul Theut (“Theut”);
Milo’s court-appointed guardian and conservator,
Stephanie McCollum (“McCollum”); McCollum’s
attorney, Lawrence Scaringelli (“Scaringelli”); an
employee of Monterey County Adult Protective
Services, Steven Mudd (“Mudd”); and Community
Memorial Hospital.
The FAC asserts twenty-one claims: (1) relief
from the Arizona state court guardianship order; (2)
relief from the Arizona state court conservatorship
order; (3) relief from the Arizona state court
conservatorship order; (4) relief from the Arizona
state court guardianship order; (5) breach of duty;
(6) attorney malpractice; (7) attorney malpractice; (8)
breach of fiduciary duty; (9) defamation; (10)
negligent infliction of emotional distress; (11)
1 The Court intends no disrespect in referring to Milo Elofson
by his first name. It does so only to distinguish him from
Plaintiff Greg Elofson.

A7
financial elder abuse; (12) violation of civil rights
under 42 U.S.C. § 1983; (13) human trafficking in
violation of 18 U.S.C. § 1595; (14) violations of the
Racketeer Influenced and Corrupt Organizations Act
(“RICO”); (15) abuse of process; (16) violation of civil
rights under 42 U.S.C. § 1983; (17) violation of civil
rights under 42 U.S.C. § 1983; (18) defamation; (19)
violation of civil rights under 42 U.S.C. § 1983; (20)
defamation; and (21) wire fraud.
On February 13, 2017, the Court granted
motions to dismiss brought by six of the seven
defendants named in the FAC, without leave to
amend. See Order Granting Motions to Dismiss First
Amended Complaint Without Leave to Amend, ECF
149. The Court noted that the seventh defendant,
McCollum, had not yet been served with the
summons and complaint. Id. at 1 n.2. Because the
Magistrate Judge previously assigned to this case
granted Elofson’s motion to proceed in forma
pauperis, Elofson was entitled to have the United
States Marshals Service effect service of process on
McCollum. Order Granting Leave to Proceed In
Forma Pauperis, ECF 6. It appears from the docket
that the original summons could not be located by
the United States Marshals Service, and that the
summons was reissued as to McCollum. Reissued
Summons, ECF 150. The docket does not reflect the
date upon which service was effected on McCollum,
but on March 30, 2017, McCollum filed the present
motion to dismiss.
II. DISCUSSION
Elofson sues McCollum, Milo’s court-appointed
guardian and conservator, for breach of fiduciary

A8
duty (Claim 8), defamation (Claim 9), negligent
infliction of emotional distress (Claim 10), financial
elder abuse (Claim 11), violation of civil rights under
§ 1983 (Claims 12 and 19), trafficking (Claim 13),
RICO violations (Claim 14), abuse of process (Claim
15), defamation (Claim 20), and wire fraud (Claim
21). Before turning to the substance of McCollum’s
motion to dismiss these claims, the Court addresses
the admissibility of documents submitted by both
parties.
The Court may consider evidence beyond the
four corners of the complaint when considering a
motion to dismiss for lack of subject matter
jurisdiction or for lack of personal jurisdiction. See
Safe Air For Everyone v. Meyer, 373 F.3d 1035, 1039
(9th Cir. 2004) (subject matter jurisdiction); Ranza v.
Nike, Inc., 793 F.3d 1059, 1068 (9th Cir. 2015)
(personal jurisdiction). Such evidence must be
admissible. See Lavinia Aircraft Leasing, LLC v.
Piper Aircraft Inc., No. CV-16-02849-PHX-DGC,
2017 WL 1326140, at *3 (D. Ariz. Apr. 11, 2017) (to
defeat a motion to dismiss for lack of personal
jurisdiction, the plaintiff has the burden to make a
prima facie showing “based on admissible evidence”);
Yhudai v. Mortg. Elec. Registration Sys., Inc., No.
CV 15-05035 MMM (JPRx), 2015 WL 5826777, at *7
n.38 (C.D. Cal. Oct. 2, 2015) (“In the Ninth Circuit,
however, admissible evidence is required to carry a
party’s burden of showing that the district court has
subject matter jurisdiction to hear an action.”).
McCollum requests judicial notice of numerous
documents filed in the Arizona guardianship and
conservatorship proceedings entitled In the Matter of
the Guardianship and Conservatorship of Milo
Elofson, Maricopa County Superior Court case no.

A9
PB 2013-050520. See Def.’s RJN, ECF 153-2. Those
documents are attached to and authenticated by
McCollum’s declaration. See McCollum Decl., ECF
153-3. McCollum’s request for judicial notice is
GRANTED. See Reyn’s Pasta Bella, LLC v. Visa
USA, Inc., 442 F.3d 741, 746 n.6 (9th Cir. 2006) (“We
may take judicial notice of court filings and other
matters of public record.”).
Elofson also submits documents for the Court’s
consideration, including what appears to be an
Arizona state court order appointing McCollum as
Milo’s conservator; a letter from an attorney named
John Paul Parks, dated July 15, 2016; and what
appears to be an investigative finding regarding
alleged misconduct by McCollum in connection with
her appointment as guardian in another case
unrelated to Milo’s case. See Pl.’s Opp., ECF 155.
Those documents are merely appended to Elofson’s
opposition brief; they are not authenticated.
Accordingly, they are inadmissible and may not be
considered by the Court. See Orr u. Bank of Am., NT
& SA, 285 F.3d 764, 773 (9th Cir. 2002)
(“Authentication is a condition precedent to
admissibility.”) (internal quotation marks and
citation omitted omitted).
Even if it were to consider the evidence
submitted by Elofson, that evidence would not alter
the Court’s analysis, as the documents are irrelevant
to the jurisdictional issues raised by McCollum’s
motion to dismiss. The first document, which
appears to be an order appointing McCollum as
Milo’s conservator, does not add any relevant
information, as the fact of that appointment is not in
dispute. Pl.’s Opp. Exh. A, ECF 155-2. The second
document, a letter from an attorney named John

A10
Paul Parks, appears to be a response to an inquiry
made by an Arizona law firm on behalf of Elofson.
Pl.’s Opp. Exh. B, ECF 155-4. In the letter, Mr.
Parks states that he does not have any original will
or estate planning documents for Milo Elofson; that
he previously had mailed a copy of his file relating to
Milo Elofson to Greg Elofson; and that he could not
disclose any other information under the rules
governing attorney-client confidentiality. Id. Finally,
the third document, which appears to be an
investigative finding regarding McCollum’s alleged
misconduct in connection with another Arizona
guardianship unrelated to Milo’s guardianship, does
not speak to McCollum’s contacts with California or
any other issue relevant to this Court’s jurisdiction
over the claims or the parties. Pl.’s Opp. Exh. C, ECF
155-6.
Having clarified which documents may be
considered in addressing McCollum’s motion, the
Court turns to the asserted grounds for dismissal,
lack of subject matter jurisdiction and lack of
personal jurisdiction.
A. Rule 12(b)(1) - Subject Matter Jurisdiction
A party may challenge the Court’s subject matter
jurisdiction by bringing a motion to dismiss under
Federal Rule of Civil Procedure 12(b)(1). “A Rule
12(b)(1) jurisdictional attack may be facial or
factual.” Safe Air, 373 F.3d at 1039 (9th Cir. 2004).
In a facial attack, the movant asserts that the lack of
subject matter jurisdiction is apparent from the face
of the complaint. Id. In a factual attack, the movant
disputes the truth of allegations that otherwise
would give rise to federal jurisdiction. Id “In

All
resolving a factual attack on jurisdiction, the district
court may review evidence beyond the complaint
without converting the motion to dismiss into a
motion for summary judgment.” Id. “The court need
not presume the truthfulness of the plaintiffs
allegations.” Id. Once the moving party has
presented evidence demonstrating the lack of subject
matter jurisdiction, the party opposing the motion
must present affidavits or other evidence sufficient
to establish subject matter jurisdiction. Id. Such
evidence must be admissible. Yhudai, 2015 WL
5826777, at *7 n.38.
McCollum mounts a factual attack to subject
matter jurisdiction, asserting that the evidence
makes clear that the present action is a de facto
appeal of the numerous Arizona state court rulings
that were adverse to Elofson, and thus that this
Court lacks subject matter jurisdiction under the
Rooker-Feldman doctrine. The Rooker-Feldman
doctrine bars a federal district court from reviewing
the final determinations of a state court. See Dist. of
Columbia Court of Appeals v. Feldman, 460 U.S.
462, 476 (1983); Rooker v. Fidelity Trust Co., 263
U.S. 413, 415-16 (1923).
The Court twice has determined that it lacks
subject matter jurisdiction over all of the federal
claims at issue here. The Court first addressed the
application of Rooker-Feldman when it denied
Elofson’s application for a temporary restraining
order. See Order Denying Plaintiff s Motion for
Appointment of Counsel; Denying Plaintiffs
Application for a Temporary Restraining Order; and
Granting Plaintiff s Motion for Leave to File an
Amended Complaint, ECF 23. Elofson subsequently
filed the operative FAC, adding among other things

A12
a lengthy discussion of the Rooker-Feldman doctrine
and his opinions as to why Rooker-Feldman does not
apply to his claims. See FAC, ECF 29. The Court
considered those amendments when it addressed
motions to dismiss brought by six of the seven
named defendants. See Order Granting Motions to
Dismiss First Amended Complaint Without Leave to
Amend, ECF 149. The Court once again concluded
that Rooker-Feldman bars Elofson’s federal claims,
and in particular determined that all of Elofson’s
federal claims against McCollum and her attorney,
Scaringelli, “depend upon the asserted invalidity of
the Arizona state court orders regarding Milo’s
guardianship and conservatorship.” Id. at 27-28.
McCollum argues that under the reasoning set
forth in the Court’s prior orders, Elofson’s federal
claims against her are barred by Rooker-Feldman. In
opposition, Elofson simply disagrees with the Court’s
application of the Rooker-Feldman doctrine. The
Court has considered Elofson’s arguments against
the backdrop of the documents from the Arizona
proceedings submitted by McCollum, and it remains
persuaded that all of Elofson’s federal claims against
McCollum are barred.
The purpose of the Rooker-Feldman doctrine “is
to protect state judgments from collateral federal
attack. Because district courts lack power to hear
direct appeals from state court decisions, they must
decline jurisdiction whenever they are ‘in essence
called upon to review the state court decision.’” Doe
& Assocs. Law Offices u. Napolitano, 252 F.3d 1026,
1030 (9th Cir. 2001) (quoting Feldman, 460 U.S. at
482 n.16). The Rooker-Feldman doctrine precludes
not only review of decisions of the state’s highest
court, but also those of its lower courts. See Dubinka

A13
v. Judges of Superior Court, 23 F.3d 218, 221 (9th
Cir. 1994). “Rooker-Feldman may also apply where
the parties do not directly contest the merits of a
state court decision, as the doctrine prohibits a
federal district court from exercising subject matter
jurisdiction over a suit that is a de facto appeal from
a state court judgment.” Reusser v. Wachovia Bank,
N.A., 525 F.3d 855, 859 (9th Cir. 2008) (internal
quotation marks and citation omitted). “A federal
action constitutes such a de facto appeal where
claims raised in the federal court action are
inextricably intertwined with the state court’s
decision such that the adjudication of the federal
claims would undercut the state ruling or require
the district court to interpret the application of state
laws or procedural rules.” Id. (internal quotation
marks and citation omitted).
Elofson’s federal claims against McCollum are
inextricably intertwined with the Arizona state court
proceedings and resulting orders, and Elofson could
not prevail on those claims without undercutting the
Arizona orders. For example, Claims 12 and 19,
asserted under § 1983, allege that the Arizona state
court proceedings deprived Plaintiff and Milo of due
process and free association rights protected under
the Fourteenth Amendment. Claim 13 for trafficking
and Claim 14 for RICO violations allege that
Defendants’ control over Milo’s assets and person
pursuant to the Arizona state court orders constitute
human trafficking and racketeering activity. Claim
21 for wire fraud alleges that McCollum and
Scaringelli committed wire fraud when they asserted
McCollum’s rights as Milo’s guardian and
conservator in communications to Mudd and
Community Memorial Hospital. All of these claims

A14
are premised on the asserted illegality of the Arizona
court’s rulings and actions taken pursuant to those
rulings. Accordingly, they are subject to dismissal
under the Rooker-Feldman doctrine for lack of
subject matter jurisdiction.
Having concluded that all federal claims
remaining in the FAC are subject to dismissal, the
Court declines to exercise supplemental jurisdiction
over Elofson’s state law claims. “A district court ‘may
decline to exercise supplemental jurisdiction’ if it
‘has dismissed all claims over which it has original
jurisdiction.’” Sanford v. MemberWorks, Inc., 625
F.3d 550, 561 (9th Cir. 2010) (quoting 28 U.S.C. §
1367(c)(3)). ‘“[I]n the usual case in which all federallaw claims are eliminated before trial, the balance of
factors to be considered under the pendent
jurisdiction doctrine — judicial economy, convenience,
fairness, and comity — will point toward declining to
exercise jurisdiction over the remaining state-law
claims.’” Id. (quoting Carnegie-Mellon Univ. u.
Cohill, 484 U.S. 343, 350 n. 7 (1988)). Here, the case
is still at the pleading stage. Under these
circumstances, the Court perceives no reason to
exercise supplemental jurisdiction over Elofson’s
state law claims.
B. Rule 12(b)(2) - Personal Jurisdiction
A party may challenge the Court’s personal
jurisdiction over it by bringing a motion to dismiss
under Federal Rule of Civil Procedure 12(b)(2).
When a defendant raises a challenge to personal
jurisdiction, the plaintiff bears the burden of
establishing that jurisdiction is proper. Ranza, 793
F.3d at 1068. The plaintiff may meet that burden by

A15
submitting affidavits and discovery materials. Id.
“Where, as here, the defendant’s motion is based on
written materials rather than an evidentiary
hearing, the plaintiff need only make a prima facie
showing of jurisdictional facts to withstand the
motion to dismiss.” Id. (internal quotation marks
and citation omitted). “[T]he plaintiff cannot simply
rest on the bare allegations of its complaint,” but
when evaluating the plaintiff s showing, the court
must accept uncontroverted allegations in the
complaint as true and resolve factual disputes
created by conflicting affidavits in the plaintiffs
favor.” Schwarzenegger u. Fred Martin Motor Co.,
374 F.3d 797, 800 (9th Cir. 2004) (internal quotation
marks and citation omitted). Such evidence must be
admissible. See Lavinia Aircraft Leasing, 2017 WL
1326140, at *3.
McCollum seeks dismissal for lack of personal
jurisdiction based on her declaration stating that she
resides in Mesa, Arizona; she is a licensed fiduciary
only in the State of Arizona; she has not spent any
significant time in California other than an eighteenmonth period spent working at an architectural firm
in California, which occurred thirty-six years ago;
she does not do business or advertise in California;
and she does not own or lease property in California.
McCollum Decl. Iff 29-31, ECF 153-3. Elofson
asserts that McCollum is subject to personal
jurisdiction in this Court under RICO’s “ends of
justice” provision, 18 U.S.C. § 1965(b). Although he
argued in opposition to other defendants’ Rule
12(b)(2) motions that personal jurisdiction existed
under California’s long-arm statute, Elofson does not
make that argument with respect to McCollum.
Because Elofson has the burden to establish

A16
personal jurisdiction, the Court limits its
consideration of personal jurisdiction to the RICO
statute asserted in his brief.
Under 18 U.S.C. § 1965(b), a district court may
exercise personal jurisdiction over non-resident
participants in an alleged RICO conspiracy, even if
those parties otherwise would not be subject to the
court’s jurisdiction, if “the ends of justice” so require.
This “ends of justice” provision permits a court,
consistent with the purpose of the RICO statute, to
“enable plaintiffs to bring all members of a
nationwide RICO conspiracy before a court in a
single trial.” Butcher’s Union Local No. 498, United
Food & Comm. Workers u. SDC Inv., Inc., 788 F.2d
535, 538 (9th Cir. 1986). This power is not unlimited,
however. In order for a court to exercise personal
jurisdiction through the “ends of justice” provision,
“the court must have personal jurisdiction over at
least one of the participants in the alleged multi­
district conspiracy and the plaintiff must show that
there is no other district in which a court will have
personal jurisdiction over all of the alleged
coconspirators.” Id. at 539.
Elofson asserts a single claim under RICO
(Claim 14), in which he alleges that Dougherty Elofson, Bivens, Theut, Scaringelli, and McCollum
engaged in a pattern of racketeering activity. FAC
Tff 586-605, ECF 29. All five of the alleged
conspirators are alleged to be residents of Arizona.
FAC Tf 119.2 Because the United States District
2 The parties’ residences are listed in an unnumbered
paragraph subheaded “PARTIES” located between paragraph
119 and 120. See FAC at pp. 40-41, ECF 29. For ease reference,
the Court treats this unnumbered paragraph as part of
paragraph 119.

A17
Court for the District of Arizona would have
personal jurisdiction over all the alleged
coconspirators, the “ends of justice” provision does
not apply.
Elofson asserts that Defendants Mudd and
Community Memorial Hospital, both California
residents, are RICO coconspirators. Pl.’s Opp. at 1516, ECF 155. However, Mudd and Community
Memorial Hospital are not named as coconspirators
in the FAC, and the Court previously concluded that
Elofson could not amend his pleading to make out a
plausible claim that Mudd and Community
Memorial Hospital were part of the alleged
conspiracy. See Order Granting Motions to Dismiss
First Amended Complaint Without Leave to Amend,
ECF 149. The Court therefore dismissed Elofson’s
claims against Mudd and Community Memorial
Hospital without leave to amend. Id. Elofson
nonetheless argues in opposition to McCollum’s
motion that he should be granted leave to amend to
add conspiracy allegations against Mudd and
Community Memorial Hospital. Elofson did not seek
reconsideration of the Court’s order dismissing his
claims against Mudd and Community Memorial
Hospital when it issued, and he has not presented
any factual or legal basis for reconsideration of that
ruling now.
Moreover, as discussed above, Elofson has the
burden of coming forward with evidence sufficient to
make a prima facie showing of personal jurisdiction.
Elofson has not submitted any admissible evidence
in opposition to McCollum’s motion.

A18
C. Conclusion
In conclusion, McCollum has presented evidence
showing that this Court lacks subject matter
jurisdiction over Elofson’s federal claims and lacks
personal jurisdiction over her. Elofson has not
satisfied his burden to present evidence sufficient to
establish the existence of subject matter jurisdiction
or to make a prima facie showing of personal
jurisdiction. Accordingly, McCollum’s motion to
dismiss is GRANTED WITHOUT LEAVE TO
AMEND.
This order is without prejudice to Elofson’s
pursuit of his claims in an appropriate forum having
both subject matter jurisdiction over the claims and
personal jurisdiction over the parties.
III. ORDER
(1) Defendant McCollum’s motion to dismiss for lack
of subject matter jurisdiction is GRANTED
WITHOUT LEAVE TO AMEND as to the federal
claims alleged in the FAC. Absent a viable
federal claim, the Court DECLINES to exercise
supplemental jurisdiction over the state law
claims alleged in the FAC.
(2) Defendant McCollum’s motion to dismiss for lack
of personal jurisdiction is GRANTED WITHOUT
LEAVE TO AMEND.
(3) This order is without prejudice to Plaintiff
Elofson’s litigation of his claims in an
appropriate forum.
Dated: July 6, 2017
Is/
BETH LABSON FREEMAN
United States District Judge

A19
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF CALIFORNIA
SAN JOSE DIVISION
Case No. 15-cv-05761-BLF
GREG STEVEN ELOFSON,
Plaintiff,
v.
STEPHANIE BIVENS, et al.,
Defendants.
ORDER GRANTING MOTIONS TO DISMISS
FIRST AMENDED COMPLAINT WITHOUT
LEAVE TO AMEND
[Re: ECF 48, 51, 70, 82,102, 106]
Plaintiff Greg Steven Elofson (“Elofson”),
proceeding pro se, filed this action to challenge
Arizona state court orders relating to the
guardianship and conservatorship of his father, Milo
Elofson (“Milo”).3 Elofson seeks relief from those
orders under Federal Rule of Civil Procedure 60, and
he additionally asserts numerous federal and state
law claims against persons who were either involved
in the Arizona proceedings or helped return Milo to
Arizona after Elofson moved him out of state in
violation of court orders.
Before the Court are motions to dismiss filed by
six of the seven defendants named in the operative

3 The Court intends no disrespect in referring to Milo Elofson
by his first name. It does so only to distinguish him from
Plaintiff Greg Elofson.

A20
first amended complaint (“FAC”)-4 For the reasons
discussed below, Elofson’s claims against all moving
parties are DISMISSED WITHOUT LEAVE TO
AMEND.
I. BACKGROUND
This action arises from the circumstances
surrounding the conservatorship of Elofson’s father,
Milo. Elofson claims that Milo suffered from vascular
dementia and that Milo’s step-daughter, Pam
Dougherty-Elofson, abused Milo’s trust by
withdrawing $74,000 from Milo’s bank account to
pay off the mortgage on her house. FAC IHf 130-31,
ECF 29. When Milo discovered the missing funds, he
asked Elofson for help in figuring out what had
happened. Id. ]f 134. Elofson retained an attorney,
Stephanie Bivens, to advise him about protecting
Milo’s finances from Dougherty-Elofson. Id. 138.
Bivens suggested that Milo be conserved and place
under Elofson’s guardianship. Id. f 139. However,
Bivens later informed Elofson that he could not be
appointed as Milo’s conservator because he could not
be bonded. Id. 146. Elofson claims that he decided
to proceed with a petition for temporary
guardianship of Milo, but not a conservatorship. Id.
Iff 151-57. However, according to Elofson, Bivens
nonetheless filed a petition for both permanent
guardianship and permanent conservatorship of
Milo and forged Elofson’s signature on that
document. Id. H 158.

4 It does not appear that the seventh defendant, Stephanie
McCollum, has been served with the summons and complaint.
That circumstance will be addressed in a separate order.

A21
Elofson states that he did not know that Bivens
had filed a forged petition requesting both
guardianship and conservatorship of Milo. FAC H
171. However, he questioned other aspects of Bivens’
representation, and his relationship with her began
to deteriorate. Id.
164-169. He ultimately fired
her. Id. ^ 175. During the same time frame, the
Arizona court appointed an attorney named Paul
Theut to represent Milo and appointed Elofson as
Milo’s temporary guardian. Id.
168, 172. The
court later removed Elofson as Milo’s guardian and
appointed a licensed Arizona fiduciary named
Stephanie McCollum as Milo’s guardian and
conservator. Id.
205, 210, 306. Elofson claims
that Theut and Bivens, along with McCollum and
her attorney, Lawrence Scaringelli, committed fraud
on Elofson and the Arizona court throughout the
guardianship and conservatorship proceedings. Id.
168-306. Elofson also claims that he was denied
due process in the Arizona state court proceedings,
asserting among other things that he was not given
adequate notice of certain hearings and other events.
Id.
During the course of the Arizona proceedings,
Elofson requested leave of court to move Milo to
California, where Elofson resided. FAC Tf 269, ECF
29. That request was denied. Id. Elofson nonetheless
“traveled, with Milo, to California,” FAC ^ 302, and
took up residence with him there, FAC 307. The
Arizona state court found Elofson in civil contempt of
court. FAC 304.
In January 2015, Elofson contacted Monterey
County Social Services to request a part-time
caregiver for Milo. FAC t 307, ECF 29. Monterey
County Social Services contacted Monterey County

A22
Adult Protective Services, which contacted
McCollum. Id. TfTf 312-13. Elofson claims that
McCollum and her attorney, Scaringelli, informed
Monterey County Adult Protective Services that
Elofson had financially abused Milo and was
responsible for missing monies from Milo’s estate.
Id. Tf 313. In February 2015, Steven Mudd of
Monterey County Adult Protective Services,
Monterey Police officers, and medical personnel went
to Elofson’s residence and transported Milo to
Natividad Medical Center. Id. THf 314-17.5 Elofson
removed Milo from Natividad the following day: Id.
The Arizona state court subsequently issued a
fiduciary arrest warrant for Elofson. Id. If 320.
In September 2015, Elofson took Milo to
Community Memorial Hospital (“Community
Hospital”) in Ventura, California, for evaluation
“because of Milo’s strong urge to wander throughout
that night.” FAC If 321-22, ECF 29. Community
Hospital communicated with McCollum and her
attorney, Scaringelli, and was informed that Elofson
had kidnapped Milo. Id. If 326. Community Hospital
put Milo under twenty-four hour security oversight
with standing orders to prevent Elofson from
entering the hospital or seeing Milo. Id. ^1f 329-332.
Two weeks later, Scaringelli emailed Elofson to
inform him that Milo was back in Arizona. Id. If 333.
Elofson claims that although Milo was in good
physical health when he arrived at Community
Hospital, he deteriorated quickly once removed from
Elofson’s care. FAC If^f 331-36, ECF 26. At the time
Elofson filed the FAC, he was gravely concerned for
his father, alleging that Milo was suffering from bed
5 The FAC alleges that this event occurred in February 2014,
but this appears to be a typographical error.

A23
sores, a kidney infection, dehydration, and
starvation. Id. Tf 335. The FAC asserts claims
against Dougherty-Elofson (Milo’s step-daughter),
Bivens (Elofson’s former attorney), Theut (Milo’s
court-appointed attorney), McCollum (Milo’s
guardian and conservator), Scaringelli (McCollum’s
attorney), Mudd (employee of Monterey County
Adult Protective Services), and Community Hospital.
The FAC, spanning 168 pages and including 685
paragraphs of allegations, asserts twenty-one claims:
(1) relief from the Arizona state court guardianship
order; (2) relief from the Arizona state court
conservatorship order; (3) relief from the Arizona
state court conservatorship order; (4) relief from the
Arizona state court guardianship order; (5) breach of
duty; (6) attorney malpractice; (7) attorney
malpractice; (8) breach of fiduciary duty; (9)
defamation; (10) negligent infliction of emotional
distress; (11) financial elder abuse; (12) violation of
civil rights under 42 U.S.C. § 1983; (13) human
trafficking in violation of 18 U.S.C. § 1595; (14)
violations of the Racketeer Influenced and Corrupt
Organizations Act (“RICO”); (15) abuse of process;
(16) violation of civil rights under 42 U.S.C. § 1983;
(17) violation of civil rights under 42 U.S.C. § 1983;
(18) defamation; (19) violation of civil rights under
42 U.S.C. § 1983; (20) defamation; and (21) wire
fraud. The prayer requests that this Court set aside
as null and void the Arizona state court
guardianship and conservatorship orders and award
compensatory, statutory, and punitive damages, as
well as attorneys’ fees and costs.
Approximately three months after Elofson filed
the FAC, he informed the Court that Milo had
passed away and requested that the Court order an

A24
autopsy to determine the cause of death. Pl.’s
Emergency Ex Parte Motion to Compel Emergency
Autopsy, ECF 80. The Court denied that request
after determining that it lacks authority to order the
Pinal County, Arizona Medical Examiner to perform
an autopsy. Order Denying Plaintiffs Emergency Ex
Parte Motion to Compel Autopsy, ECF 84.
Defendants Dougherty-Elofson, Bivens, Theut,
Mudd, Community Hospital, and Scaringelli seek
dismissal of the FAC under various theories,
discussed below. In addition, Scaringelli has filed a
special motion to strike under California Code of
Civil Procedure § 425.16. The Court addresses the
motions of each defendant in turn.
II. DOUGHERTY-ELOFSON
Elofson sues Dougherty-Elofson, Milo’s step­
daughter, for breach of duty (Claim 5), trafficking
(Claim 13), and RICO violations (Claim 14). She
seeks dismissal under Federal Rule of Civil
Procedure 12(b)(2) for lack of personal jurisdiction.
In support of her motion, she submits a declaration
stating that she is a resident of Arizona; she has not
lived in, traveled to, or been physically present in
California in more than twenty years; and she does
not conduct business in California. DoughertyElofson Decl.
2-4, ECF 51-1.
When a defendant raises a challenge to personal
jurisdiction, the plaintiff bears the burden of
establishing that jurisdiction is proper. Ranza v.
Nike, Inc., 793 F.3d 1059, 1068 (9th Cir. 2015). The
plaintiff may meet that burden by submitting
affidavits and discovery materials. Doe v. Unocal
Corp., 248 F.3d 915, 922 (9th Cir. 2001). “Where, as

A25
here, the defendant’s motion is based on written
materials rather than an evidentiary hearing, the
plaintiff need only make a prima facie showing of
jurisdictional facts to withstand the motion to
dismiss.” Ranza, 793 F.3d at 1068 (internal
quotation marks and citation omitted). “[T]he
plaintiff cannot simply rest on the bare allegations of
its complaint,” but when evaluating the plaintiffs
showing, the court must accept uncontroverted
allegations in the complaint as true and resolve
factual disputes created by conflicting affidavits in
the plaintiff s favor.” Schwarzenegger v. Fred Martin
Motor Co., 374 F.3d 797, 800 (9th Cir. 2004)
(internal quotation marks and citation omitted).
“However, plaintiffs evidence must be admissible.”
Joseph Saveri Law Firm, Inc. v. Michael Criden
P.A., No. C-14-01740 (EDL), 2014 WL 3673313, at *2
(N.D. Cal. July 23, 2014) (citing Nicosia v. De Rooy,
72 F. Supp. 2d 1093, 1097 (N.D. Cal. 1999)).
Elofson asserts that Dougherty-Elofson is subject
to personal jurisdiction in this Court under both
California’s long-arm statute and RICO’s “ends of
justice” provision, 18 U.S.C. § 1965(b). The Court
addresses those arguments in turn.
A. California’s Long-Arm Statute
Where no applicable federal statute governs
personal jurisdiction, “the law of the state in which
the district court sits applies.” Harris Rutsky & Co.
Ins. Serus., Inc. v. Bell & Clements Ltd., 328 F.3d
1122, 1129 (9th Cir. 2003). “California’s long-arm
statute allows courts to exercise personal jurisdiction
over defendants to the extent permitted by the Due
Process Clause of the United States Constitution.”

A26
Id. “[D]ue process requires that the defendant ‘have
certain minimum contacts’ with the forum state
‘such that the maintenance of the suit does not
offend traditional notions of fair play and substantial
justice.’” Ranza, 793 F.3d at 1068 (quoting Int’l Shoe
Co. v. Washington, 326 U.S. 310, 316 (1945))
(internal quotation marks and citation omitted).
“The strength of contacts required depends on which
of the two categories of personal jurisdiction a
litigant invokes: specific jurisdiction or general
jurisdiction.” Id. at 1068. General jurisdiction lies
when the defendant’s contacts “are so continuous
and systematic as to render [it] essentially at home
in the forum State.” Daimler AG u. Bauman, 134 S.
Ct. 746, 761 (2014) (internal quotation marks and
citation omitted). A nonresident that is subject to the
court’s general jurisdiction may be sued for claims
“arising from dealings entirely distinct” from the
forum-related activities. Id. (internal quotation
marks and citation omitted) (emphasis omitted). In
contrast, specific jurisdiction exists when the
defendant’s contacts with the forum state are more
limited but the plaintiff s claims arise out of or relate
to those contacts. Id. at 754. General jurisdiction is
referred to as “all-purpose” jurisdiction whereas
specific jurisdiction is referred to as “case-specific” or
“case-linked” jurisdiction. Ranza, 793 F.3d at 1069
n.2 (citations omitted).
Elofson does not argue that Dougherty-Elofson is
subject to general jurisdiction in California — he
argues only that she is subject to specific
jurisdiction. Courts in the Ninth Circuit employ a
three-prong test when determining whether a
nonresident defendant may be subject to specific
personal jurisdiction in a forum:

A27
(1) The non-resident defendant must
purposefully direct his activities or
consummate some transaction with the
forum or resident thereof; or perform some
act by which he purposefully avails himself
of the privilege of conducting activities in the
forum, thereby invoking the benefits and
protections of its laws;
(2) the claim must be one which arises out of
or relates to the defendant’s forum-related
activities; and
(3) the exercise of jurisdiction must comport
with fair play and substantial justice, i.e. it
must be reasonable.
Schwarzenegger, 374 F.3d at 802. “The plaintiff
bears the burden of satisfying the first two prongs of
the test.” Id. If the plaintiff succeeds in doing so, the
burden shifts to the defendant to “set forth a
‘compelling case’ that the exercise of jurisdiction
would not be reasonable.” CollegeSource, Inc. v.
AcademyOne, Inc., 653 F.3d 1066, 1076 (9th Cir.
2011) (quoting Burger King Corp. v. Rudzewicz, 471
U.S. 462, 476-78 (1985)).
1. Purposeful Direction or Availment
“Purposeful direction” and “purposeful
availment” are two distinct concepts, the former
most often used in suits sounding in tort and the
latter in suits sounding in contract. Schwarzenegger,
374 F.3d at 802. Purposeful availment may be found
when the defendant executes or performs a contract
in the forum state or otherwise “purposefully avails
itself of the privilege of conducting activities within

A28
the forum State, thus invoking the benefits and
protections of its laws.” Id. (internal quotation marks
and citation omitted). “In return for these benefits
and protections, a defendant must — as a quid pro
quo — submit to the burdens of litigation in that
forum.” Id. (internal quotation marks and citation
omitted). “A showing that a defendant purposefully
directed his conduct toward a forum state, by
contrast, usually consists of evidence of the
defendant’s actions outside the forum state that are
directed at the forum, such as the distribution in the
forum state of goods originating elsewhere.” Id. at
803. “The Supreme Court has held that due process
permits the exercise of personal jurisdiction over a
defendant who purposefully directs his activities at
residents of a forum, even in the absence of physical
contacts with the forum.” Id. (internal quotation
marks, citation, and brackets omitted).
Here, a purposeful direction analysis is most
appropriate. Elofson sues Dougherty-Elofson for
breach of fiduciary duty — a tort — and for statutory
claims that are more akin to tort than contract. In
asserting those claims, Elofson does not contend that
Dougherty-Elofson availed herself of the privileges of
doing business in California, but rather that she
committed intentional acts aimed at California.
Purposeful direction is evaluated under the
“effects” test first articulated in Colder v. Jones, 465
U.S. 783 (1984). Under that test, “a defendant
purposefully directed his activities at the forum if
he: (1) committed an intentional act, (2) expressly
aimed at the forum state, (3) causing harm that the
defendant knows is likely to be suffered in the forum
state.” Picot v. Weston, 780 F.3d 1206, 1212 (9th Cir.
2015) (internal quotation marks and citation

A29
omitted). Analysis of those factors must focus on the
“defendant’s contacts with the forum state itself, not
the defendant’s contacts with persons who reside
there.” Walden v. Fiore, 134 S. Ct. 1115, 1122 (2014).
a. Commission of an Intentional Act
Under the Colder effects test, Elofson first must
demonstrate that Dougherty-Elofson committed an
intentional act. In this context, “intent” refers to “an
intent to perform an actual, physical act in the real
world, rather than an intent to accomplish a result
or consequence of that act.” Schwarzenegger, 374
F.3d at 806. Elofson identifies three intentional acts
by Dougherty-Elofson: emailing Elofson to solicit his
agreement to embezzle Milo’s funds, embezzlement
of the funds, and speaking with Elofson by telephone
to solicit his agreement to embezzle more of Milo’s
funds. Pl.’s Opp. at 12-13, ECF 69. All three of those
actions constitutes intentional acts under the effects
test.
b. Expressly Aimed at the Forum State
Elofson has not shown, however, how those
intentional acts were aimed at California. It is clear
from the record that Milo resided in Arizona at the
relevant time. Thus the conduct described by Elofson
boils down to one Arizona resident’s solicitations to
embezzle, and actual embezzlement of, the funds of
another Arizona resident. Elofson suggests that the
conduct was directed at California because it
violated a number of California statutes, including
California Penal Code § 503 (defining the term
“embezzlement”), California Penal Code § 515

A30
(providing that the elder or dependent status of a
victim may be an aggravating circumstance),
California Probate Code § 4231.5 (attorney in fact’s
breach of duty), and California Welfare and
Institutions Code § 15610.30 (defining financial
elder abuse). However, because both Dougherty Elofson and Milo were Arizona residents at the time
of the alleged solicitation and embezzlement,
California statutes do not apply.
Elofson also argues that the embezzlement was
aimed at California because he had a “beneficiary
interest” in Milo’s estate and he resides in
California. Even if Dougherty-Elofson knew that
embezzlement of Milo’s funds might injure Elofson
in some way, such knowledge does not establish that
Dougherty-Elofson’s alleged embezzlement of an
Arizona resident’s funds in Arizona was expressly
aimed at California. “[M]ere injury to a forum
resident is not a sufficient connection to the forum”
to establish personal jurisdiction. Walden, 134 S. Ct.
at 1125. Thus Elofson has failed to satisfy the
“expressly aimed” prong of the Colder effects test.
To the extent that Dougherty-Elofson’s telephone
call and emails with Elofson, a California resident,
can be considered independent intentional acts that
were aimed at California, those acts — as
distinguished from the embezzlement itself — did not
harm Elofson, as discussed below.
c. Causing Harm Likely to be Suffered in the
Forum State
The final prong of the Colder test requires the
plaintiff to show that the defendant caused harm
that the defendant knows is likely to be suffered in

A31
the forum state. As discussed above, Elofson has not
shown that Dougherty-Elofson’s alleged
embezzlement of Milo’s funds was aimed at
California. Even if Elofson had made that showing,
he has not established that the embezzlement
harmed him. Elofson argues that the embezzlement
harmed him because he had a “beneficiary interest”
in Milo’s estate. To the extent that Elofson is
arguing that he would have inherited the funds had
they not been embezzled, Elofson has not submitted
evidence that he is Milo’s heir and any speculation
that the funds would have remained in Milo’s estate
absent the embezzlement is just that — speculation.
Finally, even if Elofson had shown that the
embezzlement caused him harm, “[t]he proper
question is not where the plaintiff experienced a
particular injury or effect but whether the
defendant’s conduct connects him to the forum in a
meaningful way.” Walden, 134 S. Ct. at 1125
(emphasis added). Any incidental injury that Elofson
may have suffered as a result of one Arizona
resident, Dougherty-Elofson, embezzling funds from
another Arizona resident, Milo, is insufficient to
connect Dougherty-Elofson to California in a
meaningful way.
Finally, to the extent that Dougherty-Elofson’s
telephone conversation and emails with Elofson are
sufficient to satisfy the first two prongs of the effects
test, they are insufficient to satisfy the third prong
because those communications did not harm Elofson.
Elofson makes clear in the FAC and the briefing on
Dougherty-Elofson’s motion that he rejected her
solicitations of wrongdoing in no uncertain terms.
Thus the communications, as distinct from the

A32
alleged embezzlement itself, do not satisfy the
purposeful direction prong of Schwarzenegger.
2. Arising Out Of
The Ninth Circuit has dubbed the second prong
of Schwarzenegger’s specific jurisdiction inquiry as
the “but for test.” In re Western States Wholesale
Nat. Gas Antitrust Litig., 715 F.3d 716, 742 (9th Cir.
2013). “Under the ‘but for’ test, a lawsuit arises out
of a defendant’s contacts with the forum state if a
direct nexus exists between those contacts and the
cause of action.” Id. (internal quotation marks and
citation omitted). That test is not satisfied here
because to the extent that Elofson’s claims against
Dougherty-Elofson for breach of duty (Claim 5),
trafficking (Claim 13), and RICO violations (Claim
14) arise out of Dougherty-Elofson’s alleged
embezzlement of funds in Arizona, such
embezzlement does not constitute a contact with
California for the reasons discussed above.
Moreover, Dougherty-Elofson’s alleged
embezzlement of Milo’s funds was certainly not
dependent on any act completed by Elofson, as
evidenced by his alleged refusal to participate in the
scheme.
3. Reasonableness
Elofson has not met his burden to make out a
prima facie case on the first two Schwarzenegger
prongs. Accordingly the burden does not shift to
Dougerty-Elofson to address the reasonableness of
requiring her to defend this suit in California.
Moreover, given that the record does not suggest any

A33
meaningful contacts between Dougherty-Elofson and
California, this Court’s exercise of personal
jurisdiction over her would be unreasonable.
B. RICO’s “Ends of Justice” Provision
Under 18 U.S.C. § 1965(b), a district court may
exercise personal jurisdiction over non-resident
participants in an alleged RICO conspiracy, even if
those parties otherwise would not be subject to the
court’s jurisdiction, if “the ends of justice” so require.
This “ends of justice” provision permits a court,
consistent with the purpose of the RICO statute, to
“enable plaintiffs to bring all members of a
nationwide RICO conspiracy before a court in a
single trial.” Butcher’s Union Local No. 498, United
Food & Comm. Workers v. SDC Inv., Inc., 788 F.2d
535, 538 (9th Cir. 1986). This power is not unlimited,
however. In order for a court to exercise personal
jurisdiction through the “ends of justice” provision,
“the court must have personal jurisdiction over at
least one of the participants in the alleged multi­
district conspiracy and the plaintiff must show that
there is no other district in which a court will have
personal jurisdiction over all of the alleged
coconspirators.” Id. at 539.
Elofson asserts a single claim under RICO
(Claim 14), in which he alleges that DoughertyElofson, Bivens, Theut, Scaringelli, and McCollum
engaged in a pattern of racketeering activity. FAC
Tit 586-605, ECF 29. Elofson acknowledges that all
five of the alleged conspirators are residents of
Arizona. FAC If 119.6 Because the United States
6 The parties’ residences are listed in an unnumbered
paragraph subheaded “PARTIES” located between paragraph

A34
District Court for the District of Arizona would have
personal jurisdiction over all the alleged
coconspirators, the “ends of justice” provision does
not apply.
Elofson asserts that he could amend his pleading
to allege that Mudd and Community Hospital, both
California residents, are RICO coconspirators.
Elofson contends that if such an amendment were
permitted, the “ends of justice” provision would
apply because this Court then would have personal
jurisdiction over at least one coconspirator and this
would be the only district in which all of the alleged
coconspirators could be sued. However, Elofson has
not offered any facts to suggest that he plausibly
could allege that Mudd and Community Hospital
participated in a RICO conspiracy with the Arizona
residents.
Indeed, any such allegations would be
inconsistent with the allegations set forth in the
current FAC. For example, Elofson alleges that
McCollum and Scaringelli “falsely reported” to Mudd
that Elofson “was responsible for missing monies
from Milo Elofson’s estate and that Plaintiff Elofson
therefore had financially abused Milo Elofson.” FAC
If 313, ECF 29. Elofson also alleges that when Mudd
and six Monterey police officers “stormed” Elofson’s
residence and removed Milo to a medical facility,
“Mudd claimed that Defendants McCollum and
Scaringelli indicated that there were missing monies
from Milo Elofson’s estate because of Plaintiff
Elofson.” Id. 1 314. Elofson alleges that “Scaringelli
offered this as a statement of fact” even though
119 and 120. See FAC at pp. 40-41, ECF 29. For ease reference,
the Court treats this unnumbered paragraph as part of
paragraph 119.

A3 5
“Stephanie McCollum and Lawrence Scaringelli
knew it was false.” Id. ^ 458. He also asserts that
the false statements of McCollum and Scaringelli
“were the single proximate cause of several
Monterey County police officers descending on
Greg’s and Milo’s abode.” Id. 459.
Elofson repeats these allegations in various
forms throughout the FAC, alleging for example that
“Stephanie McCollum and Lawrence Scaringelli
made a false report to a government agency, when
they reported to Steve Mudd of Monterey County
Adult Protective Services that Greg Elofson was
responsible for missing monies, taken from Milo
Elofson.” Id. ^ 463. Elofson makes clear that Mudd
was “[a]cting on Stephanie McCollum’s and
Lawrence Scaringelli’s statements” when Mudd
“acted to confine Milo Elofson within the Natividad
Medical Center.” Id. ^ 464. Given these allegations
that McCollum and Scaringelli lied to Mudd and
that Mudd relied on those lies in bringing Monterey
police officers to seize Milo, Elofson could not
plausibly allege that in fact Mudd was not relying in
good faith on information received from McCollum
and Scaringelli but actually was a RICO
coconspirator. See Airs Aromatics, LLC v. Opinion
Victoria’s Secret Stores Brand Mgmt., Inc., 744 F.3d
595, 600 (9th Cir. 2014) (“A party cannot amend
pleadings to directly contradict an earlier assertion
made in the same proceeding.”) (internal quotation
marks, citation, and brackets omitted).
The FAC contains similar allegations regarding
Community Hospital, for example, that “Defendants
McCollum and Scaringelli [committed] the second
act of Wire Fraud by communicating to Community
Memorial Hospital that Plaintiff Elofson had

A36
‘kidnapped’ Milo Elofson, which is elder abuse, and
per se defamation.” FAC t 681, ECF 29. The FAC
also alleges that “Milo was put in isolation at
Community Medical Center in Ventura California, at
the orders of Defendants McCollum and Scaringelli.”
Id. Till 565, 641. Given these allegations that
McCollum and Scaringelli informed Community
Hospital that Elofson had kidnapped Milo, and that
Community Hospital followed the direction of
McCollum and Scaringelli in isolating Milo from
Elofson, Elofson could not plausibly allege that in
fact Community Hospital did not rely on McCollum
and Scaringelli but rather was a RICO
coconspirator. See Airs Aromatics, 744 F.3d at 600.
Accordingly, the “ends of justice” provision does
not apply and Elofson could not plausibly amend his
pleading to add facts that would trigger application
of the provision.
C. Conclusion
In conclusion, Elofson has neither satisfied his
burden of making out a prima facie case of personal
jurisdiction under California’s long-arm statute nor
demonstrated that personal jurisdiction lies under
RICO’s “ends of justice” provision. Consequently,
Dougherty-Elofson’s motion to dismiss for lack of
personal jurisdiction is GRANTED.
III. BIVENS
Elofson sues Bivens, his former attorney, for
relief from judgment (Claim 1), attorney malpractice
(Claim 6), trafficking (Claim 13), and RICO
violations (Claim 14). She seeks dismissal under

A37
Rule 12(b)(2) for lack of personal jurisdiction. Bivens
submits her own declaration stating that she resides
in Arizona; is licensed to practice law only in Arizona
and does practice in Arizona; does not own property,
advertise, attend trade shows, or conduct business in
California; and has traveled to California only for
short vacations. Bivens Decl. 1HJ 3-7, ECF 71.
Elofson does not dispute any of those facts. Instead,
he argues that Bivens is subject to personal
jurisdiction in this Court under both California’s
long-arm statute and RICO’s “ends of justice”
provision, 18 U.S.C. § 1965(b).
A. California’s Long-Arm Statute
1. Purposeful Direction or Availment
Because Elofson’s attorney malpractice claim
against Bivens sounds in tort and his other claims
against her are more in the nature of torts than
contracts, a purposeful direction analysis is
appropriate. As set forth above, under that test, “a
defendant purposefully directed his activities at the
forum if he: (1) committed an intentional act, (2)
expressly aimed at the forum state, (3) causing harm
that the defendant knows is likely to be suffered in
the forum state.” Picot, 780 F.3d at 1212.
a. Commission of an Intentional Act
Under the Calder effects test, Elofson first must
demonstrate that Bivens committed an intentional
act. Elofson contends that Bivens committed the
following intentional acts: she maintains a
nationwide website which utilizes “viral marketing”;

A38
contracted to represent Elofson in the Arizona
guardianship and conservatorship proceedings;
communicated with Elofson by telephone and email
regarding that representation; submitted to the
Arizona state courts documents that Elofson had
notarized in California; and filed forged documents
in the Arizona proceedings.
As evidence of those intentional acts, Elofson
submits a request for judicial notice accompanied by
several documents, including screen shots of what
appear to be a website maintained by Bivens’ law
firm, a fee agreement between Elofson and Bivens’
law firm, email communications between Elofson
and Bivens, and documents relating to Milo’s
guardianship proceedings. See Pl.’s RJN, ECF 87.
Bivens objects to Elofson’s request for judicial notice,
asserting that the proffered documents are not
appropriate subject matter for judicial notice. The
Court agrees and thus denies the request for judicial
notice. Moreover, the documents are inadmissible, as
they are not authenticated. However, even if it were
to consider all of the documents submitted by
Elofson, and to assume that Bivens committed each
of the asserted acts, the Court would conclude that
Elofson has failed to show purposeful direction
under the Calder effects test for the reasons
discussed below.
b. Expressly Aimed at the Forum State
Elofson has failed to show that Bivens’
intentional acts, described above, were expressly
aimed at California. Elofson contends that Bivens’
law firm expressly aimed marketing efforts at
California by means of the firm’s interactive website.

A39
The Ninth Circuit has “struggled with the question
whether tortious conduct on a nationally accessible
website is expressly aimed at any, or all, of the
forums in which the website can be viewed.” Mavrix
Photo, Inc. v. Brand Techs., Inc., 647 F.3d 1218, 1229
(9th Cir. 2011). It is clear that merely operating a
passive website that is accessible in the forum state
does not satisfy the express aiming prong of the
effects test. Id. However, “operating even a passive
website in conjunction with something more —
conduct directly targeting the forum — is sufficient.”
Id. (internal quotation marks and citations omitted).
When considering whether a nonresident defendant
has done something more, the Ninth Circuit has
“considered several factors, including the
interactivity of the defendant’s website, the
geographic scope of the defendant’s commercial
ambitions, and whether the defendant individually
targeted a plaintiff known to be a forum resident.”
Id. (internal quotation marks and citations omitted).
Based on this record, it does not appear that the
firm’s website is particularly interactive. Bivens
states in her declaration that potential clients may
submit their name, email address, and telephone
number, and ask a question. Bivens Decl. ^ 4, ECF
71. Bivens responds only to inquiries based on
Arizona law involving Arizona elders. Id. Bivens
practices exclusively in the area of elder law, estate
planning, and special needs law. Id. TJ 3. Based on
the unauthenticated documents submitted by
Elofson, it appears that an individual viewing the
law firm’s website can sign up for an online email,
and may forward such online email to others. See
Pl.’s RJN, ECF 87. There is no indication that
products may be purchased through the website or

A40
that the website offers any special information or
incentives to California residents. There is no
indication that Bivens’ law firm targets California
residents. To the contrary, Elofson states that he
“found defendant Bivens through her website,”
indicating that he was actively looking for a lawyer
to represent him with respect to Milo and searched
the Internet for such a lawyer. Bivens states in her
declaration that she is licensed to practice law only
in Arizona. The “something more” required to find
personal jurisdiction based on the website is missing.
“If the defendant merely operates a website, even a
highly interactive website, that is accessible from,
but does not target, the forum state, then the
defendant may not be haled into court in that state
without offending the Constitution.” DFSB Kollectiue
Co. v. Bourne, 897 F. Supp. 2d 871, 881 (N.D. Cal.
2012) (internal quotation marks and citation
omitted).
Elofson also asserts that personal jurisdiction
may be found based upon Bivens’ purposeful
availment of the privileges of doing business in
California, as evidenced by Bivens’ communications
with him and use of documents executed and
notarized by him in California. The Ninth Circuit
has held that out-of-state legal representation does
not, in and of itself, establish purposeful availment
of the privilege of conducting business in the forum
state. Sher v. Johnson, 911 F.2d 1357, 1363 (9th Cir.
1990). In Sher, Florida attorneys represented a
California client in litigation before a Florida court,
sent letters and bills to California, and traveled to
California several times to meet with their client.
Those acts were not sufficient to establish a
California court’s personal jurisdiction over the

A41
Florida attorneys. Id. The Court perceives no
meaningful distinction between the facts of Sher and
those in the present case. Bivens represented
Elofson, a California client, in Arizona state court
proceedings and communicated with him about those
proceedings.7 Thus this case is unlike others in
which personal jurisdiction has been found based
upon the out-of-state attorneys’ representation of a
California resident in California proceedings. See,
e.g., Dillon v. Murphy & Hourihane, LLP, No. 14-CV01908-BLF, 2014 WL 5409040, at *9 (N.D. Cal. Oct.
22, 2014).
c. Causing Harm Likely to be Suffered in the
Forum State
Elofson argues that Bivens’ fraud on the Arizona
court caused foreseeable harm to him in California
because Bivens’ conduct was contrary to his express
wishes and because he lost his legal rights as Milo’s
beneficiary and durable power of attorney. Elofson
also argues that he was harmed by Bivens’ fees,
which harmed his beneficiary interest in Milo’s
estate. Even assuming that Elofson did suffer harm
in California, as discussed above, such harm was not
the result of conduct expressly aimed at California.
Moreover, such harm to Elofson is insufficient to
establish personal jurisdiction of Bivens in
California absent other meaningful contacts with the
forum state. See Walden, 134 S. Ct. at 1122.
2. Arising Out Of
7 Because Bivens never represented Elofson in a California
court, Elofson’s argument that Bivens put herself within the
purview of the California State Bar is without merit.

A42

As noted above, the inquiry to be asked when
considering the “arising out of’ prong is whether
there is a direct nexus between the claims and the
defendant’s contacts with the forum state. See In re
Western States, 715 F.3d at 742. There is no nexus
here, because Elofson’s claims for relief from
judgment (Claim 1), attorney malpractice (Claim 6),
trafficking (Claim 13), and RICO violations (Claim
14) arise from Bivens’ representation of him in
Arizona and not from any contacts with California.
3. Reasonableness
Elofson has not met his burden to make out a
prima facie case against Bivens on the first two
Schwarzenegger prongs. Accordingly the burden does
not shift to Bivens to address the reasonableness of
requiring her to defend this suit in California.
Moreover, given that this record does not suggest
any meaningful contacts between Bivens and
California, this Court’s exercise of personal
jurisdiction over her would be unreasonable.
B. RICO’s “Ends of Justice” Provision
As discussed above, RICO’s “ends of justice”
provision does not apply, because the FAC alleges
that all coconspirators reside in Arizona such that
the United States District Court for the District of
Arizona would have personal jurisdiction over all
coconspirators.

A43
C. Conclusion
In conclusion, Elofson has neither satisfied his
burden of making out a prima facie case of personal
jurisdiction under California’s long-arm statute nor
demonstrated that personal jurisdiction lies under
RICO’s “ends of justice” provision. Consequently,
Bivens’ motion to dismiss for lack of personal
jurisdiction is GRANTED.
IV. THEUT
Elofson sues Theut, Milo’s court-appointed
attorney, for relief from judgment (Claim 2), relief
from judgment (Claim 3), attorney malpractice
(Claim 7), breach of fiduciary duty (Claim 8),
financial elder abuse (Claim 11), civil rights
violations under § 1983 (Claim 12), trafficking
(Claim 13), and RICO violations (Claim 14). Theut
seeks dismissal under Rule 12(b)(2) for lack of
personal jurisdiction and under Rule 12(b)(3) for
improper venue.
Theut submits his own declaration stating that
he has been an Arizona resident for twenty-nine
years, he is licensed to practice law only in Arizona,
and his law firm’s only office always has been located
in Arizona. Theut Decl.
3-4, ECF 104. Theut also
states that he is not licensed to practice law in
California, he does not own property in California,
his law firm does not maintain a website or advertise
in California, and in undertaking Milo’s
representation he did not consent to jurisdiction in
California. Id.
5-7. Finally Theut states that he
has been to California only during vacation and only
during one or two weeks in his lifetime. Id. f 8.

A44
Elofson does not dispute those facts, but he asserts
that Theut is subject to personal jurisdiction in this
Court under California’s long-arm statute and
RICO’s “ends of justice” provision. Elofson also
argues that venue is proper in this Court.
A. California’s Long-Arm Statute
1. Purposeful Direction or Availment
Because Elofson’s claims against Theut for
attorney malpractice and breach of fiduciary duty
sound in tort and his other claims against Theut are
more in the nature of torts than contracts, a
purposeful direction analysis is appropriate. The test
for purposeful direction is discussed as follows.
a. Commission of an Intentional Act
Under the Calder effects test, Elofson must
demonstrate that Theut committed an intentional
act. Elofson does not identify any intentional act
committed by Theut in his opposition to Theut’s
motion. To the contrary, he asserts in his brief that
“Theut did nothing to intervene” when Scaringelli
and McCollum were “trafficking” Milo. Pl.’s Opp. at
11, ECF 124. Elofson also asserts that by aiding and
abetting Scaringelli and McCollum, “Theut injected
himself into the forum state of California, under
Walden, engaging the social services function of
Monterey County.” Id. at 12. Elofson does not
actually state that Theut spoke to any employee of
the Monterey County Social Services department.
Nor does he allege as much in his FAC. All the
contacts with Monterey County personnel are

A45
alleged to have been made by McCollum and
Scaringelli.
Because Elofson has the initial burden of making
out a prima facie case with respect to purposeful
direction, his failure to articulate any commission of
an intentional act by Theut is fatal to his assertion of
specific jurisdiction over Theut.
B. RICO’s “Ends of Justice” Provision
As discussed above, RICO’s “ends of justice”
provision does not apply, because the FAC alleges
that all coconspirators reside in Arizona such that
the United States District Court for the District of
Arizona would have personal jurisdiction over all
coconspirators.
C. Conclusion
In conclusion, Elofson has neither satisfied his
burden of making out a prima facie case of personal
jurisdiction under California’s long-arm statute nor
demonstrated that personal jurisdiction lies under
RICO’s “ends of justice” provision. Consequently,
Theut’s motion to dismiss for lack of personal
jurisdiction is GRANTED. In light of this ruling, the
Court need not reach Theut’s alternative motion to
dismiss for improper venue.
V. MUDD
Elofson sues Mudd, the Monterey County Adult
Protective Services employee who allegedly brought
six police officers to remove Milo from Elofson’s
residence in February 2015, only for violation of civil

A46
rights under § 1983 (Claim 16). Mudd seeks
dismissal under Federal Rule of Civil Procedure
12(b)(6), arguing that the FAC fails to allege facts
sufficient to state a claim upon which relief may be
granted and that it appears on the face of the FAC
that he is entitled to qualified immunity.
A. Failure to State a Claim
“A motion to dismiss under Federal Rule of Civil
Procedure 12(b)(6) for failure to state a claim upon
which relief can be granted ‘tests the legal
sufficiency of a claim.’” Conservation Force v.
Salazar, 646 F.3d 1240, 1241-42 (9th Cir. 2011)
(quoting Navarro v. Block, 250 F.3d 729, 732 (9th
Cir. 2001)). When determining whether a claim has
been stated, the Court accepts as true all well-pled
factual allegations and construes them in the light
most favorable to the plaintiff. Reese v. BP
Exploration (Alaska) Inc., 643 F.3d 681, 690 (9th Cir.
2011). However, the Court need not “accept as true
allegations that contradict matters properly subject
to judicial notice” or “allegations that are merely
conclusory, unwarranted deductions of fact, or
unreasonable inferences.” In re Gilead Scis. Sec.
Litig., 536 F.3d 1049, 1055 (9th Cir. 2008) (internal
quotation marks and citations omitted). While a
complaint need not contain detailed factual
allegations, it “must contain sufficient factual
matter, accepted as true, to ‘state a claim to relief
that is plausible on its face.’” Ashcroft v. Iqbal, 556
U.S. 662, 678 (2009) (quoting Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 570 (2007)). A claim is
facially plausible when it “allows the court to draw

A47
the reasonable inference that the defendant is liable
for the misconduct alleged.” Id.
Claim 16 alleges that Mudd “used the power of
the government, Adult Protective Service, which is
funded by the United States, to falsely imprison Milo
Elofson and deprive him of his liberty . . . without
Due Process of Law under the 14th Amendment of
the U.S. Constitution.” FAC U 647, ECF 29. Claim 16
goes on to allege that “in sequestering Milo Elofson
from his only living family member, Greg Elofson,
Steven Mudd violated Greg Elofson’s rights to
Freedom of Association under the 14th Amendment
of the United States Constitution.” Id. ^ 648.
To the extent that Elofson seeks redress for
Milo’s alleged false imprisonment, Mudd requests
that the Court take judicial notice of documents filed
in the Arizona state court. See Mudd’s RJN, ECF 481. That request is granted. See Reyn’s Pasta Bella,
LLC v. Visa USA, Inc., 442 F.3d 741, 746 n.6 (9th
Cir. 2006) (“We may take judicial notice of court
filings and other matters of public record.”). The
Arizona filings show that Elofson did not have legal
custody of Milo when Mudd allegedly falsely
imprisoned him; Elofson had removed Milo from
Arizona to California in violation of court orders. See
Mudd’s RJN, ECF 48-1. Accordingly, because Elofson
was not Milo’s conservator at the time in question,
and did not have legal custody of Milo, he lacks
standing to bring a § 1983 claim on Milo’s behalf for
false imprisonment without due process of law. See
Collins v. West Hartford Police Dep’t, 324 Fed. App’x
137, 139 (2d Cir. 2009). Accordingly, Mudd’s motion
to dismiss Claim 16 to the extent it is based on
Milo’s alleged false imprisonment is GRANTED.

A48
To the extent that Elofson seeks redress for
deprivation of Milo’s company, “[t]he substantive due
process right to family integrity or to familial
association is well established.” Rosenbaum v.
Washoe Cnty., 663 F.3d 1071, 1079 (9th Cir. 2011). A
child may assert a Fourteenth Amendment due
process claim if he or she is deprived of the
companionship and society of a parent through
official conduct. Lemire v. Cal. Dep’t of Corrs. &
Rehab., 726 F.3d 1062, 1075 (9th Cir. 2013). “Only
official conduct that shocks the conscience is
cognizable as a due process violation.” Id. (internal
quotation marks and citation omitted). As noted
above, the records submitted by Mudd establish that
Elofson removed Milo from Arizona in violation of
state court orders and without permission of Milo’s
duly appointed guardian and conservator,
McCollum. Under those circumstances, Mudd’s
actions — removing Milo from Elofson’s custody and
taking him to a medical facility for evaluation —
cannot be said to shock the conscience. Elofson
argues that “having six police officers storm your
home, take away your father to a location unknown,
demanding that you do not follow or try to find him,
does shock the conscience.” Pl.’s Opp. at 11, ECF 56.
The Court has not located a single case suggesting
that Mudd’s utilization of local authorities to
retrieve Milo shocks the conscience. However, even
assuming for purposes of this motion that Elofson’s
allegations are sufficient to make out a
constitutional violation, Mudd is entitled to qualified
immunity for the reasons discussed below.

A49
B. Qualified Immunity
Mudd argues that even if the Court were to
conclude that Elofson has stated a viable claim for
relief, dismissal is appropriate on the ground of
qualified immunity. “The doctrine of qualified
immunity shields government officials performing
discretionary functions from liability for damages
‘insofar as their conduct does not violate clearly
established statutory or constitutional rights of
which a reasonable person would have known.’”
Dunn v. Castro, 621 F.3d 1196, 1198-99 (9th Cir.
2010) (quoting Harlow v. Fitzgerald, 457 U.S. 800,
818 (1982)). In analyzing whether a government
official is entitled to qualified immunity, the court
looks at two distinct questions: (1) whether the facts
alleged, construed in the light most favorable to the
injured party, establish the violation of a
constitutional right; and (2) whether the right was
clearly established such that a reasonable
government official would have known that his
conduct was unlawful in the situation he confronted.
Id. at 1199. Courts may exercise their discretion in
deciding “which of the two prongs of the qualified
immunity analysis should be addressed first in light
of the circumstances in the particular case at hand.”
Pearson v. Callahan, 555 U.S. 223, 242 (2009).
“[Tjhe Supreme Court has ‘repeatedly . . .
stressed the importance of resolving immunity
questions at the earliest possible stage in litigation.’”
Dunn, 621 F.3d at 1199 (quoting Hunter v. Bryant,
502 U.S. 224, 227 (1991)). “Qualified immunity
confers upon officials a right, not merely to avoid
standing trial, but also to avoid the burdens of such
pretrial matters as discovery.” Id. (internal

A50
quotation marks and citations omitted). Although
the first prong of the qualified immunity analysis
calls for a factual inquiry, the second prong “is solely
a question of law for the judge.” Id. (internal
quotation marks and citations omitted). “As to the
second prong, the relevant, dispositive inquiry in
determining whether a right is clearly established is
whether it would be clear to a reasonable officer that
his conduct was unlawful in the situation he
confronted.” Id. (internal quotation marks, citation,
and brackets omitted).
“A court, when deciding whether there has been
a violation of a clearly established right for qualified
immunity, must strike the proper balance in
defining that right.” Dunn, 621 F.3d at 1200. If the
right is defined too generally, it will bear no
relationship to the objective legal reasonableness
that is the touchstone of the inquiry. Id. “[T]he right
the official is alleged to have violated must have
been “clearly established” in a more particularized,
and hence more relevant, sense: The contours of the
right must be sufficiently clear that a reasonable
official would understand that what he is doing
violates that right.” Id. (internal quotation marks
and citation omitted).
Here, the FAC alleges that “Stephanie McCollum
and Lawrence Scaringelli made a false report to a
government agency, when they reported to Steve
Mudd of Monterey County Adult Protective Services
that Greg Elofson was responsible for missing
monies, taken from Milo Elofson.” FAC ^ 463, ECF
29. The FAC alleges expressly that Mudd was
“[ajcting on Stephanie McCollum’s and Lawrence
Scaringelli’s statements” when Mudd “acted to
confine Milo Elofson within the Natividad Medical

A51
Center.” Id. If 464. The Arizona state court
documents of which the Court takes judicial notice
show that McCollum was Milo’s duly appointed
guardian and conservator and that Scaringelli was
her counsel. See Mudd’s RJN, ECF 48-1. Thus,
addressing the second prong of the qualified
immunity analysis only, the question presented by
Mudd’s motion is whether it was clearly established
in February 2015 that an individual who removes an
elder relative from his home state in violation of
court order, contrary to the wishes of the elder’s
court-appointed conservator, has a right to retain
physical custody of the elder and be free from the
efforts of Adult Protective Services and local law
enforcement, acting on the directive of the
conservator and on court-approved conservatorship
papers, to investigate and obtain a medical
evaluation of the elder. Elofson has not cited any
cases, and the Court has discovered none, indicating
that such right was clearly established. Accordingly,
even assuming that Elofson has stated a viable claim
against Mudd for a constitutional violation, Mudd is
entitled to dismissal based on qualified immunity.
C. Conclusion
Elofson’s only claim against Mudd, Claim 16,
fails to state a claim upon which relief may be
granted. Moreover it is clear that Mudd is entitled to
qualified immunity on Claim 16. Finally, in light of
Mudd’s entitlement to qualified immunity,
amendment would be futile. Accordingly, Mudd’s
motion to dismiss under Rule 12(b)(6) is GRANTED
WITHOUT LEAVE TO AMEND.

A52
VI. COMMUNITY HOSPITAL
Elofson sues Community Hospital, located in
Ventura County, which barred Elofson from seeing
Milo and ultimately returned Milo to his
conservator, McCollum, for civil rights violations
under § 1983 (Claim 17) and defamation (Claim 18).
Community Hospital seeks dismissal for improper
venue under Rule 12(b)(3) and failure to state a
claim under Rule 12(b)(6).
A. Improper Venue
A defense of improper venue may be raised by
motion under Federal Rule of Civil Procedure
12(b)(3). When venue is improper, the court “shall
dismiss, or if it be in the interest of justice, transfer
such case to any district or division in which it could
have been brought.” 28 U.S.C. § 1406(a). The
plaintiff bears the burden of showing that venue is
proper. See Piedmont Label Co. v. Sun Garden
Packing Co., 598 F.2d 491, 496 (9th Cir. 1979)
(“Plaintiff had the burden of showing that venue was
properly laid in the Northern District of
California.”). “When the plaintiff asserts multiple
claims, it must establish that venue is proper as to
each claim.” Kaia Foods, Inc. v. Bellafiore, 70 F.
Supp. 3d 1178, 1183 (N.D. Cal. 2014). “However,
where venue exists for the principal claim, federal
courts will also adjudicate closely related claims,
even if there is no independent source of venue for
the related claims.”
Venue is governed by 28 U.S.C. § 1391(b), which
provides as follows:

A53
(b) Venue in general.--A civil action may be
brought in—
(1) a judicial district in which any defendant
resides, if all defendants are residents of the
State in which the district is located;
(2) a judicial district in which a substantial
part of the events or omissions giving rise to
the claim occurred, or a substantial part of
property that is the subject of the action is
situated; or
(3) if there is no district in which an action
may otherwise be brought as provided in this
section, any judicial district in which any
defendant is subject to the court's personal
jurisdiction with respect to such action.
28U.S.C. § 1391(b).
Elofson does not argue in his opposition brief
that any of these subsections applies here.
Subsection (b)(1) clearly does not apply because not
all defendants are residents of California, the state
in which this judicial district is located. Nor does
subsection (b)(2) apply, as the only events described
in the FAC which occurred in the Northern District
of California are those relating to Defendant Mudd.
Those events make up a very small part of the
overall circumstances giving rise to this action,
which is illustrated by the fact that Mudd is named
in only one of the twenty-one claims asserted in the
FAC. Consequently, Elofson cannot show that “a
substantial part of the events” giving rise to the
action occurred in this judicial district. Finally, with
respect to (b)(3), Elofson bears the burden of
establishing that venue is proper on the basis that
there is no other judicial district in which venue

A54
would be proper. See Piedmont Label Co., 598 F.2d
at 496. Elofson has not attempted to meet this
burden. Instead, he argues that venue is proper
under RICO’s “ends of justice” provision. That
argument is without merit for the reasons discussed
above.
The Court has considered whether it would be
more appropriate to dismiss the action or transfer it
to the United States District Court for the Central
District of California, the district in which
Community Hospital is located. If the only claims
remaining in the case were asserted against
Community Hospital, the Court would be inclined to
transfer the case. However, Elofson also has claims
remaining against McCollum, an Arizona resident
who may not be amenable to suit in the Central
District of California.8 The Court therefore concludes
that transfer of the entire action to the Central
District would be inappropriate, and that dismissal
is warranted under the particular facts of this case.
Accordingly, Community Hospital’s motion to
dismiss for improper venue is GRANTED.
B. Failure to State a Claim
In light of its ruling that Community Hospital is
entitled to dismissal for improper venue, the Court
need not address Community Hospital’s motion to
dismiss for failure to state a claim.
8 Since McCollum has not moved to dismiss the FAC, the Court
has not had occasion to determine whether she is subject to
personal jurisdiction in California or where venue might be
proper with respect to claims against her. It appears that
McCollum has not yet been served with the Summons and
FAC.

A55
C. Conclusion
Community Hospital’s motion to dismiss for
improper venue is GRANTED.
VII. SCARINGELLI
Elofson sues Scaringelli, counsel for Milo’s
guardian and conservator, McCollum, for relief from
Arizona state court orders (Claims 3 and 4), breach
of fiduciary duty (Claim 8), defamation (Claim 9),
negligent infliction of emotional distress (Claim 10),
financial elder abuse (Claim 11), violation of civil
rights under § 1983 (Claims 12 and 19), trafficking
(Claim 13), RICO violations (Claim 14), abuse of
process (Claim 15), and wire fraud (Claim 21).
Scaringelli seeks dismissal for lack of subject matter
jurisdiction under Federal Rule of Civil Procedure
12(b)(1) and for lack of personal jurisdiction under
Rule 12(b)(2). He also brings a special motion to
strike under California Code of Civil Procedure §
425.16.
Scaringelli submits his own declaration stating
that he resides in Arizona, he is admitted to practice
law only in Arizona, and he has never practiced law
in a state other than Arizona. Scaringelli Decl. 25,
ECF 107. He states that he does not own property in
California, operate a business in California, or
advertise in California. Id. 1 26. His contacts with
California are limited his residency there between
1988 and 1991 while he attended law school. Id. f
25. Elofson does not dispute any of those facts, but
he argues that federal subject matter exists and that
Scaringelli is subject to personal jurisdiction in this

A56
Court under California’s long-arm statute and
RICO’s “ends of justice” provision.
A. Subject Matter Jurisdiction
A party may challenge the Court’s subject matter
jurisdiction by bringing a motion to dismiss under
Federal Rule of Civil Procedure 12(b)(1). “A Rule
12(b)(1) jurisdictional attack may be facial or
factual.” Safe Air For Everyone v. Meyer, 373 F.3d
1035, 1039 (9th Cir. 2004). In a facial attack, the
movant asserts that the lack of subject matter
jurisdiction is apparent from the face of the
complaint. Id. In a factual attack, the movant
disputes the truth of allegations that otherwise
would give rise to federal jurisdiction. Id “In
resolving a factual attack on jurisdiction, the district
court may review evidence beyond the complaint
without converting the motion to dismiss into a
motion for summary judgment.” Id. “The court need
not presume the truthfulness of the plaintiffs
allegations.” Id. Once the moving party has
presented evidence demonstrating the lack of subject
matter jurisdiction, the party opposing the motion
must present affidavits or other evidence sufficient
to establish subject matter jurisdiction. Id. Such
evidence must be admissible. Ou-Young v. Rea, No.
5:13-CV-03118-PSG, 2013 WL 5934674, at *2 (N.D.
Cal. Nov. 4, 2013) (citing Ass ’n of Am. Med. Colls, v.
United States, 217 F.3d 770, 778 (9th Cir. 2000)).
Scarengelli’s challenge to subject matter
jurisdiction appears to be a factual one, as he
submits a significant amount of documentary
evidence for the Court’s consideration. Scaringelli
asks the Court to take judicial notice of documents

A57
filed in the United States District Court for the
Central District of California, where Elofson
previously litigated claims similar to those brought
here. See Scaringelli RJN, ECF 108. That request is
granted. See Reyn’s Pasta Bella, LLC u. Visa USA,
Inc., 442 F.3d 741, 746 n.6 (9th Cir. 2006) (“We may
take judicial notice of court filings and other matters
of public record.”). The Court also considers the
documents attached to Scaringelli’s declaration,
which are properly authenticated. See Scaringelli
Deck, ECF 107. Taken together, those documents
give a fairly detailed picture of Scaringelli’s
involvement in the Arizona guardianship and
conservatorship proceedings in his role as counsel for
McCollum.
Elofson in turn asks the Court to take judicial
notice of numerous documents that he attaches to
his opposition brief. See Pl.’s Opp., ECF 122, Pl.’s
RJN, ECF 123. Those documents are not properly
authenticated. Thus they are not considered by the
Court except insofar as they are court records of
which the Court may take judicial notice. See Reyn’s
Pasta Bella, 442 F.3d at 746 n.6.
Turning to the substance of Scaringelli’s claim,
he asserts that this record makes clear that the
present action is a de facto appeal of the numerous
Arizona state court rulings that were adverse to
Elofson. Scaringelli points out that this Court
previously ruled that it lacked subject matter
jurisdiction over the federal claims alleged in
Elofson’s original complaint, all of which sought
relief from Arizona state court orders. See Order
Denying Plaintiff’s Motion for Appointment of
Counsel; Denying Plaintiff’s Application for a
Temporary Restraining Order; and Granting

A58
Plaintiff’s Motion for Leave to File an Amended
Complaint (‘Prior Order”), ECF 23. The Court’s
ruling was based on the Rooker-Feldman doctrine,
under which a federal district court lacks authority
to review the final determinations of a state court in
judicial proceedings. See Dist. of Columbia Court of
Appeals v. Feldman, 460 U.S. 462, 476 (1983);
Rooker v. Fidelity Trust Co., 263 U.S. 413, 415-16
(1923). Scaringelli quotes extensively from the Prior
Order, finding a Rooker-Feldman bar with respect to
the complaint’s federal claims and indicating that
absent a viable federal claim the Court would decline
to exercise supplemental jurisdiction over the
complaint’s state law claims. See Scaringelli Mot. at
2-3. Although Elofson subsequently filed the
operative FAC, Scaringelli contends that the
amendments do not change the nature of Elofson’s
claims.
The Court agrees. Elofson has added what
amounts to a scholarly discussion of the RookerFeldman doctrine to his pleading. However, his
thorough discussion of many cases addressing that
doctrine does not alter this Court’s conclusion that
all of his federal claims are barred by the doctrine.
The purpose of the Rooker-Feldman doctrine “is to
protect state judgments from collateral federal
attack. Because district courts lack power to hear
direct appeals from state court decisions, they must
decline jurisdiction whenever they are ‘in essence
called upon to review the state court decision.’” Doe
& Assocs. Law Offices v. Napolitano, 252 F.3d 1026,
1030 (9th Cir. 2001) (quoting Feldman, 460 U.S. at
482 n.16). The Rooker-Feldman doctrine precludes
not only review of decisions of the state’s highest
court, but also those of its lower courts. See Dubinka

A59
u. Judges of Superior Court, 23 F.3d 218, 221 (9th
Cir. 1994).
“Rooker-Feldman may also apply where the
parties do not directly contest the merits of a state
court decision, as the doctrine prohibits a federal
district court from exercising subject matter
jurisdiction over a suit that is a de facto appeal from
a state court judgment.” Reusser v. Wachovia Bank,
N.A., 525 F.3d 855, 859 (9th Cir. 2008) (internal
quotation marks and citation omitted). “A federal
action constitutes such a de facto appeal where
claims raised in the federal court action are
inextricably intertwined with the state court’s
decision such that the adjudication of the federal
claims would undercut the state ruling or require
the district court to interpret the application of state
laws or procedural rules.” Id. (internal quotation
marks and citation omitted).
As discussed above, Elofson’s claims against
most defendants are subject to dismissal for lack of
personal jurisdiction, failure to state a claim, and
improper venue. All of his remaining federal claims
— those asserted against Scaringelli and those
asserted against McCollum - depend upon the
asserted invalidity of the Arizona state court orders
regarding Milo’s guardianship and conservatorship.
Claims 3 and 4, brought under Federal Rule of Civil
Procedure 60, directly request that this Court set
aside the Arizona state court orders as null and void.
Claims 12 and 19, asserted under § 1983, allege that
the Arizona state court proceedings deprived
Plaintiff and Milo of due process and free association
rights protected under the Fourteenth Amendment.
Claim 13 for trafficking and Claim 14 for RICO
violations allege that Defendants’ control over Milo’s

A60
assets and person pursuant to the Arizona state
court orders constitute human trafficking and
racketeering activity. Claim 21 for wire fraud alleges
that McCollum and Scaringelli committed wire fraud
when they asserted McCollum’s rights as Milo’s
guardian and conservator in communications to
Mudd and Community Hospital. All of these claims
are inextricably intertwined with the Arizona state
court proceedings and resulting orders and therefore
are subject to dismissal under the Rooker-Feldman
doctrine for lack of subject matter jurisdiction..
Having concluded that all federal claims
remaining in the FAC are subject to dismissal, the
Court declines to exercise supplemental jurisdiction
over the state law claims asserted in the FAC. “A
district court ‘may decline to exercise supplemental
jurisdiction’ if it ‘has dismissed all claims over which
it has original jurisdiction.’” Sanford u.
MemberWorks, Inc., 625 F.3d 550, 561 (9th Cir.
2010) (quoting 28 U.S.C. § 1367(c)(3)). ‘“[I]n the
usual case in which all federal-law claims are
eliminated before trial, the balance of factors to be
considered under the pendent jurisdiction doctrine —
judicial economy, convenience, fairness, and comity will point toward declining to exercise jurisdiction
over the remaining state-law claims.’” Id. (quoting
Carnegie-Mellon Univ. v. Cohill, 484 U.S. 343, 350 n.
7 (1988)). Here, the case is in its early stages. The
Court has issued several orders in the case denying
Elofson’s motions with respect to appointment of
counsel, temporary injunctive relief, and the like.
However, the present order is the first to address
motions to dismiss. Under these circumstances, the
Court perceives no reason to exercise supplemental
jurisdiction over Elofson’s state law claims.

A61
B. Personal Jurisdiction and Special Motion to
Strike
In light of the Court’s determination that
Scaringelli is entitled to dismissal for lack of subject
matter jurisdiction, the Court need not reach his
alternative motion to dismiss for lack of personal
jurisdiction. Moreover, Scaringelli’s papers indicate
that if it dismisses the claims against him, the Court
need not reach his special motion to strike under
California Code of Civil Procedure § 425.16. The
Court therefore deems that motion to be withdrawn.
C. Conclusion
Scaringelli’s motion to dismiss for lack of subject
matter jurisdiction is GRANTED.
VIII. LEAVE TO AMEND
The Court has reviewed carefully all of Elofson’s
arguments, which he has presented quite
articulately in his briefing and at the hearing on this
matter, and has given careful consideration to
whether Elofson might be able to cure the defects
noted herein if granted leave to amend. The Court
concludes that he could not. The Court has
determined that it lacks personal jurisdiction over
most of the defendants, and there is no indication on
this record that jurisdictional discovery could reveal
facts that would alter that determination. As to the
two defendants over whom the Court clearly has
personal jurisdiction, Mudd and Community
Hospital, Mudd has established entitlement to
dismissal based on qualified immunity, a defect that

A62
could not be cured by amendment. Community
Hospital has established entitlement to dismissal for
lack of proper venue, and there is no indication on
this record that amendment could alter that
analysis. Finally, Scaringelli has demonstrated that
all of the remaining federal claims in the FAC are
barred by the Rooker-Feldman doctrine, again, a
defect that could not be cured by amendment.
Accordingly, leave to amend is DENIED as to all
moving parties.
It is apparent from the record and from the
passion with which Elofson has pursued this lawsuit
that he cared deeply for his father, Milo. The Court
has no doubt that he believes sincerely that injustice
has been done and that redress is due. This Court
simply is not the proper forum for Elofson’s efforts.
IV. ORDER
For the reasons discussed above,
(1) Defendant Dougherty-Elofson’s motion to
dismiss for lack of personal jurisdiction is
GRANTED WITHOUT LEAVE TO AMEND;
(2) Defendant Bivens’ motion to dismiss for lack
of personal jurisdiction is GRANTED WITHOUT
LEAVE TO AMEND;
(3) Defendant Theut’s motion to dismiss for lack
of personal jurisdiction is GRANTED WITHOUT
LEAVE TO AMEND;

A63
(4) Defendant Mudd’s motion to dismiss on the
basis of qualified immunity is GRANTED
WITHOUT LEAVE TO AMEND;
(5) Defendant Community Hospital’s motion to
dismiss for improper venue is GRANTED
WITHOUT LEAVE TO AMEND;
(6) Defendant Scaringelli’s motion to dismiss for
lack of subject matter jurisdiction is GRANTED
WITHOUT LEAVE TO AMEND.
Dated: February 13, 2017
/s/
BETH LABSON FREEMAN
United States District Judge

A64
Constitutional Amendments
1st Amend.
Congress shall make no law respecting an
establishment of religion, or prohibiting the free
exercise thereof; or abridging the freedom of speech,
or of the press; or the right of the people peaceably to
assemble, and to petition the Government for a
redress of grievances.
4th Amend.
The right of the people to be secure in their persons,
houses, papers, and effects, against unreasonable
searches and seizures, shall not be violated, and no
Warrants shall issue, but upon probable cause,
supported by Oath or affirmation, and particularly
describing the place to be searched, and the persons
or things to be seized.
14th Amend.
All persons born or naturalized in the United States
and subject to the jurisdiction thereof, are citizens of
the United States and of the State wherein they
reside. No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens
of the United States; nor shall any State deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within its
jurisdiction the equal protection of the laws.

A65
ACTS
Sherman Act 15 U.S. Code § 5 - Bringing in
additional parties:
Whenever it shall appear to the court before which
any proceeding under section 4 of this title may be
pending, that the ends of justice require that other
parties should be brought before the court, the court
may cause them to be summoned, whether they
reside in the district in which the court is held or
not; and subpoenas to that end may be served in any
district by the marshal thereof. (July 2, 1890, ch.
647, § 5, 26 Stat. 210.)

Clayton Act - 15 U.S. Code § 22 - District in which to
sue corporation:
Any suit, action, or proceeding under the antitrust
laws against a corporation may be brought not only
in the judicial district whereof it is an inhabitant,
but also in any district wherein it may be found or
transacts business; and all process in such cases may
be served in the district of which it is an inhabitant,
or wherever it may be found.
(Oct. 15, 1914, ch. 323, § 12, 38 Stat. 736.)

%

A66
Federal Statutes
18 U.S. Code § 1201 - Kidnapping provides in
pertinent part:
(a) Whoever unlawfully seizes, confines,
inveigles, decoys, kidnaps, abducts, or
carries away and holds for...otherwise any
person... when—
(1) the person is willfully transported in
interstate... commerce ... shall be
punished by imprisonment
(b) With respect to subsection (a)(1), above,
the failure to release the victim within
twenty-four hours ... shall create a rebuttable
presumption that such person has been
transported in interstate... commerce.
(c) If two or more persons conspire to violate
this section and one or more of such persons
do any overt act to effect the object of the
conspiracy, each shall be punished by
imprisonment for any term of years or for life.
(d) Whoever attempts to violate subsection (a)
shall be punished by imprisonment for not
more than twenty years.

A67
State Statutes
2016 Arizona Revised Statutes
Title 36 - Public Health and Safety
§ 36-564 Guardianship
Universal Citation: AZ Rev Stat § 36-564 (2016)
36-564. Guardianship
A. Guardians for clients acting under the provisions
of this chapter shall be appointed pursuant to title
14, chapter 5, articles 1, 2, 3 and 6.
B. The department shall request the appointment of
a guardian for minor clients receiving services under
the provisions of this chapter if no parent is willing
and competent to act, and shall request the
appointment of a guardian for adult clients receiving
services under the provisions of this chapter if it
appears that the appointment of a guardian would
be in the client's best interests in accordance with
section 14-5304.
C. When no person or corporation is qualified and
willing to act as guardian for a client, the
department shall notify the public fiduciary of the
county where the client is receiving services of the
need for appointment of a guardian.
D. Guardianship or conservatorship for persons with
developmental disabilities shall be utilized only as is
necessary to promote the well-being of the
individual, be designed to encourage the
development of maximum self-reliance and
independence in the individual, and shall be ordered
only to the extent necessitated by the individual's
actual mental, physical and adaptive limitations.

A68
Arizona Revised Statutes
14-5303. Procedure for court appointment of a
guardian of an alleged incapacitated person
A. The alleged incapacitated person or any person
interested in that person's affairs or welfare may
petition for the appointment of a guardian or for any
other appropriate protective order.
B. The petition shall contain a statement that the
authority granted to the guardian may include the
authority to withhold or withdraw life sustaining
treatment, including artificial food and fluid, and
shall state, at a minimum and to the extent known,
all of the following:
1. The interest of the petitioner.
2. The name, age, residence and address of the
alleged incapacitated person.
3. The name, address and priority for appointment of
the person whose appointment is sought.
4. The name and address of the conservator, if any,
of the alleged incapacitated person.
5. The name and address of the nearest relative of
the alleged incapacitated person known to the
petitioner.
6. A general statement of the property of the alleged
incapacitated person, with an estimate of its value
and including any compensation, insurance, pension
or allowance to which the person is entitled.
7. The reason why appointment of a guardian or any
other protective order is necessary.
8. The type of guardianship requested. If a general
guardianship is requested, the petition must state
that other alternatives have been explored and why
a limited guardianship is not appropriate. If a

A69
limited guardianship is requested, the petition also
must state what specific powers are requested.
9. If a legal decision-making, parenting time or
visitation order was previously entered regarding an
alleged incapacitated person in a marriage
dissolution, legal separation or paternity action in
this state or another jurisdiction and the petitioner
or proposed guardian is a parent of the alleged
incapacitated person or a nonparent who has been
awarded legal decision-making as to the alleged
incapacitated person, the court and case number for
that action or proceeding and include a copy of the
most recent court order regarding legal decision­
making, parenting time and visitation.
10. If the appointment of a guardian is necessary
due solely to the physical incapacity of the alleged
incapacitated person.
C. On the filing of a petition, the court shall set a
hearing date on the issues of incapacity. Unless the
alleged incapacitated person is represented by
independent counsel, the court shall appoint an
attorney to represent that person in the proceeding.
The alleged incapacitated person shall be
interviewed by an investigator appointed by the
court and shall be examined by a physician,
psychologist or registered nurse appointed by the
court. If the alleged incapacitated person has an
established relationship with a physician,
psychologist or registered nurse who is determined
by the court to be qualified to evaluate the capacity
of the alleged incapacitated person, the court may
appoint the alleged incapacitated person's physician,
psychologist or registered nurse pursuant to this
subsection. The investigator and the person
conducting the examination shall submit their

A70
reports in writing to the court. In addition to
information required under subsection D, the court
may direct that either report include other
information the court deems appropriate. The
investigator also shall interview the person seeking
appointment as guardian, visit the present place of
abode of the alleged incapacitated person and the
place where it is proposed that the person will be
detained or reside if the requested appointment is
made and submit a report in writing to the court.
The alleged incapacitated person is entitled to be
present at the hearing and to see or hear all evidence
bearing on that person's condition. The alleged
incapacitated person is entitled to be represented by
counsel, to present evidence, to cross-examine
witnesses, including the court-appointed examiner
and investigator, and to trial by jury. The court may
determine the issue at a closed hearing if the alleged
incapacitated person or that person's counsel so
requests.
D. A report filed pursuant to this section by a
physician, psychologist or registered nurse acting
within that person's scope of practice shall include
the following information:
1. A specific description of the physical, psychiatric
or psychological diagnosis of the person.
2. A comprehensive assessment listing any
functional impairments of the alleged incapacitated
person and an explanation of how and to what extent
these functional impairments may prevent that
person from receiving or evaluating information in
making decisions or in communicating informed
decisions regarding that person.

A71
3. An analysis of the tasks of daily living the alleged
incapacitated person is capable of performing
without direction or with minimal direction.
4. A list of all medications the alleged incapacitated
person is receiving, the dosage of the medications
and a description of the effects each medication has
on the person's behavior to the best of the declarant's
knowledge.
5. A prognosis for improvement in the alleged
incapacitated person's condition and a
recommendation for the most appropriate
rehabilitation plan or care plan.
6. Other information the physician, psychologist or
registered nurse deems appropriate.
14-5307. Substitution or resignation of guardian:
termination of incapacity
A. On petition of the ward or any person interested
in the ward's welfare, or on the court's own
initiative, the court shall substitute a guardian and
appoint a successor if it is in the best interest of the
ward. The court does not need to find that the
guardian acted inappropriately to find that the
substitution is in the ward's best interest. The
guardian and the guardian's attorney may be
compensated from the ward's estate for defending
against a petition for substitution only for the
amount ordered by the court and on petition by the
guardian or the guardian's attorney. When
substituting a guardian and appointing a successor,
the court may appoint an individual nominated by
the ward if the ward is at least fourteen years of age
and has, in the opinion of the court, sufficient mental
capacity to make an intelligent choice. On petition
of the guardian, the court may accept a resignation
and make any other order that may be appropriate.

A72
B. The ward may petition the court for an order that
the ward is no longer incapacitated or petition for
substitution of the guardian at any time. A request
for this order may be made by informal letter to the
court or judge. A person who knowingly interferes
with the transmission of this request may be found
in contempt of court.
C. An interested person, other than the guardian or
ward, shall not file a petition for adjudication that
the ward is no longer incapacitated earlier than one
year after the order adjudicating incapacity was
entered unless the court permits it to be made on the
basis of affidavits that there is reason to believe that
the ward is no longer incapacitated.
D. An interested person, other than the guardian or
ward, shall not file a petition to substitute a
guardian earlier than one year after the order
adjudicating incapacity was entered unless the court
permits it to be made on the basis of affidavits that
there is reason to believe that the current guardian
will endanger the ward's physical, mental or
emotional health if not substituted.
E. Before substituting a guardian, accepting the
resignation of a guardian or ordering that a ward's
incapacity has terminated, the court, following the
same procedures to safeguard the rights of the ward
as apply to a petition for appointment of a guardian,
may send an investigator to the residence of the
present guardian and to the place where the ward
resides or is detained to observe conditions and
report in writing to the court.
F. On termination of the incapacity, the supreme
court shall transmit the order terminating the
incapacity to the department of public safety. The
department of public safety shall transmit the

A73
information to the national instant criminal
background check system.

14-5309. Notices in guardianship proceedings
A. In a proceeding for a contact order or modification
of a contact order pursuant to section 14-5316 or for
the appointment or substitution of a guardian of a
ward or an alleged incapacitated person other than
the appointment of a temporary guardian or
temporary suspension of a guardian, notice of a
hearing shall be given to each of the following:
1. The ward or the alleged incapacitated person and
that person's spouse, parents and adult children.
2. Any person who is serving as guardian or
conservator or who has the care and custody of the
ward or the alleged incapacitated person.
3. In case no other person is notified under
paragraph 1 of this subsection, at least one of that
person's closest adult relatives, if any can be found.
4. Any person who has filed a demand for notice.
B. At least fourteen days before the hearing notice
shall be served personally on the ward or the alleged
incapacitated person and that person's spouse and
parents if they can be found within the state. Notice
to the spouse and parents, if they cannot be found
within the state, and to all other persons except the
ward or the alleged incapacitated person shall be
given as provided in section 14-1401. Waiver of
notice by the ward or the alleged incapacitated
person is not effective unless that person attends the
hearing.

A74
14-5312. General powers and duties of guardian
A. A guardian of an incapacitated person has the
same powers, rights and duties respecting the
guardian's ward that a parent has respecting the
parent's unemancipated minor child, except that a
guardian is not liable to third persons for acts of the
ward solely by reason of the guardianship. In
particular, and without qualifying the foregoing, a
guardian has the following powers and duties, except
as modified by order of the court:
1. To the extent that it is consistent with the terms
of any order by a court of competent jurisdiction
relating to detention or commitment of the ward, the
guardian is entitled to custody of the person of the
ward and may establish the ward's place of abode
within or without this state.
2. If entitled to custody of the ward the guardian
shall make provision for the care, comfort and
maintenance of the ward and, whenever appropriate,
arrange for the ward's training and education.
Without regard to custodial rights of the ward's
person, the guardian shall take reasonable care of
the ward's clothing, furniture, vehicles and other
personal effects and commence protective
proceedings if other property of the ward is in need
of protection.
3. A guardian may give any consents or approvals
that may be necessary to enable the ward to receive
medical or other professional care, counsel,
treatment or service.
4. If no conservator for the estate of the ward has
been appointed, the guardian may:
(a) Institute proceedings to compel any person under
a duty to support the ward or to pay sums for the
welfare of the ward to perform such person's duty.

A75
(b) Receive money and tangible property deliverable
to the ward and apply the money and property for
support, care and education of the ward, but the
guardian may not use funds from his ward's estate
for room and board the guardian or the guardian's
spouse, parent or child has furnished the ward
unless a charge for the service is approved by order
of the court made upon notice to at least one of the
next of kin of the ward, if notice is possible. He must
exercise care to conserve any excess for the ward's
needs.
5. A guardian is required to report the condition of
the ward and of the estate that has been subject to
the guardian's possession or control, as required by
the court or court rule.
6. If a conservator has been appointed, all of the
ward's estate received by the guardian in excess of
those funds expended to meet current expenses for
support, care and education of the ward shall be paid
to the conservator for management as provided in
this chapter and the guardian must account to the
conservator for funds expended.
7. If appropriate, a guardian shall encourage the
ward to develop maximum self-reliance and
independence and shall actively work toward
limiting or terminating the guardianship and
seeking alternatives to guardianship.
8. A guardian shall find the most appropriate and
least restrictive setting for the ward consistent with
the ward's needs, capabilities and financial ability.
9. A guardian shall make reasonable efforts to secure
appropriate medical and psychological care and
social services for the ward.
10. A guardian shall make reasonable efforts to
secure appropriate training, education and social

A76
and vocational opportunities for his ward in order to
maximize the ward's potential for independence.
11. In making decisions concerning his ward, a
guardian shall take into consideration the ward's
values and wishes.
12. The guardian is authorized to act pursuant to
title 36, chapter 32.
13. The guardian of an incapacitated adult who has
a developmental disability as defined in section 36551 shall seek services that are in the best interest
of the ward, taking into consideration:
(a) The ward's age.
(b) The degree or type of developmental disability.
(c) The presence of other disabling conditions.
(d) The guardian's ability to provide the maximum
opportunity to develop the ward's maximum
potential, to provide a minimally structured
residential program and environment for the ward
and to provide a safe, secure, and dependable
residential and program environment.
(e) The particular desires of the individual.
B. Any guardian of a ward for whom a conservator
also has been appointed shall control the custody
and care of the ward and is entitled to receive
reasonable sums for the guardian's services and for
room and board furnished to the ward as agreed
upon between the guardian and the conservator if
the amounts agreed upon are reasonable under the
circumstances. The guardian may request the
conservator to expend the ward's estate by payment
to third persons or institutions for the ward's care
and maintenance.

A77
14-5405. Notice in conservatorship proceedings
A. In a proceeding for the appointment or
substitution of a conservator of a protected person or
person allegedly in need of protection, other than the
appointment of a temporary conservator or
temporary suspension of a conservator, and in a
proceeding to continue a conservatorship or other
protective order pursuant to section 14-5401,
subsection B, notice of the hearing shall be given to
each of the following:
1. The protected person or the person allegedly in
need of protection if that person is fourteen years of
age or older.
2. The spouse, parents and adult children of the
protected person or person allegedly in need of
protection, or if no spouse, parents or adult children
can be located, at least one adult relative of the
protected person or the person allegedly in need of
protection, if such a relative can be found.
3. Any person who is serving as guardian or
conservator or who has the care and custody of the
protected person or person allegedly in need of
protection.
4. Any person who has filed a demand for notice.
B. At least fourteen days before the hearing notice
shall be served personally on the protected person or
the person allegedly in need of protection and that
person's spouse and parents if they can be found
within the state. Notice to the spouse and parents, if
they cannot be found within the state, and to all
other persons except the protected person or the
person allegedly in need of protection shall be given
in accordance with section 14-1401. Waiver of notice
by the protected person or the person allegedly in
need of protection is not effective unless the

A78
protected person or the person allegedly in need of
protection attends the hearing.

16 A.R.S. Rules of Civil Procedure, Rule 4.1
Rule 4.1. Service of Process Within Arizona
Currentness
(a) Territorial Limits of Effective Service. All
process--including a summons-may be served
anywhere within Arizona.
(b) Serving a Summons and Complaint or
Other Pleading. The summons and the pleading
being served must be served together within the
time allowed under Rule 4(i). The serving party must
furnish the necessary copies to the person who
makes service. Service is complete when made.
(c) Waiving Service.
(1) Requesting a Waiver. An individual, corporation,
or association that is subject to service under Rule
4.1(d), (h)(l)-(3), (h)(4)(A), or (i) has a duty to avoid
unnecessary expense in serving the summons. To
avoid costs, the plaintiff may notify the defendant
that an action has been commenced and request that
the defendant waive service of a summons. The
notice and request must:
(A) be in writing and be addressed to the defendant
and any other person required in this rule to be
served with the summons and the pleading being
served;
(B) name the court where the pleading being served
was filed;
(C) be accompanied by a copy of the pleading being
served, two copies of a waiver form prescribed in

A79
Rule 84, Form 2, and a prepaid means for returning
the completed form;
(D) inform the defendant, using text provided in
Rule 84, Form 1, of the consequences of waiving and
not waiving service;
(E) state the date when the request is sent;
(F) give the defendant a reasonable time to return
the waiver, which must be at least 30 days after the
request was sent; and
(G) be sent by first-class mail or other reliable
means.
(2) Failure to Waive. If a defendant fails without
good cause to sign and return a waiver requested by
a plaintiff, the court must impose on the defendant:
(A) the expenses later incurred in making service;
and
(B) the reasonable expenses, including attorney's
fees, of any motion required to collect those service
expenses.
(3) Time to Answer After a Waiver. A defendant who,
before being served with process, timely returns a
waiver need not serve an answer or otherwise
respond to the pleading being served until 60 days
after the request was sent.
(4) Results of Filing a Waiver. When the plaintiff
files an executed waiver, proof of service is not
required and, except for the additional time in which
a defendant may answer or otherwise respond as
provided in Rule 4.1(c)(3), these rules apply as if a
summons and the pleading being served had been
served at the time of filing the waiver.
(5) Jurisdiction and Venue Not Waived. Waiving
service of a summons does not waive any objection to
personal jurisdiction or venue.

A80
(d) Serving an Individual. Unless Rule 4.1(c), (e),
(f), or (g) applies, an individual may be served by:
(1) delivering a copy of the summons and the
pleading being served to that individual personally;
(2) leaving a copy of each at that individual's
dwelling or usual place of abode with someone of
suitable age and discretion who resides there; or
(3) delivering a copy of each to an agent authorized
by appointment or by law to receive service of
process.
(e) Serving a Minor. Unless Rule 4.1(f) applies, a
minor less than 16 years old may be served by
delivering a copy of the summons and the pleading
being served to the minor in the manner set forth
in Rule 4.1(d) for serving an individual and also
delivering a copy of each in the same manner:
(1) to the minor's parent or guardian, if any of them
reside or may be found within Arizona; or
(2) if none of them resides or is found within
Arizona, to any adult having the care and control of
the minor, or any person of suitable age and
discretion with whom the minor resides.
(f) Serving a Minor Who Has a Guardian or
Conservator. If a court has appointed a guardian or
conservator for a minor, the minor must be served by
serving the guardian or conservator in the manner
set forth in Rule 4.1(d) for serving an individual, and
separately serving the minor in that same manner.
(g) Serving a Person Adjudicated Incompetent
Who Has a Guardian or Conservator. If a court
has declared a person to be insane, gravely disabled,
incapacitated, or mentally incompetent to manage
that person's property and has appointed a guardian
or conservator for the person, the person must be
served by serving the guardian or conservator in the

A81
manner set forth in Rule 4.1(d) for serving an
individual, and separately serving the person in that
same manner.
(h) Serving a Governmental Entity. If a
governmental entity has the legal capacity to be
sued and it has not waived service under Rule 4.1(c),
it may be served by delivering a copy of the
summons and the pleading being served to the
following individuals:
(1) for service on the State of Arizona, the Attorney
General;
(2) for service on a county, the Board of Supervisors
clerk for that county;
(3) for service on a municipal corporation, the clerk
of that municipal corporation; and
(4) for service on any other governmental entity:
(A) the individual designated by the entity, as
required by statute, to receive service of process; or
(B) if the entity has not designated a person to
receive service of process, then the entity's chief
executive officer(s), or, alternatively, its official
secretary, clerk, or recording officer.
(i) Serving a Corporation, Partnership, or
Other Unincorporated Association. If a domestic
or foreign corporation, partnership, or other
unincorporated association has the legal capacity to
be sued and has not waived service under Rule
4.1(c), it may be served by delivering a copy of the
summons and the pleading being served to a
partner, an officer, a managing or general agent, or
any other agent authorized by appointment or by
law to receive service of process and--if the agent is
one authorized by statute and the statute so
requires--by also mailing a copy of each to the
defendant.

A82
(j) Serving a Domestic Corporation if an
Authorized Officer or Agent Is Not Found
Within Arizona.
(1) Generally. If a domestic corporation does not have
an officer or an agent within Arizona on whom
process can be served, the corporation may be served
by depositing two copies of the summons and the
pleading being served with the Arizona Corporation
Commission. Following this procedure constitutes
personal service on that corporation.
(2) Evidence. If the sheriff of the county in which the
action is pending states in the return that, after
diligent search or inquiry, the sheriff has been
unable to find an officer or agent of such corporation
on whom process may be served, the statement
constitutes prima facie evidence that the corporation
does not have such an officer or agent in Arizona.
(3) Commission's Responsibilities. The Arizona
Corporation Commission must retain one of the
copies of the summons and the pleading being served
for its records and immediately mail the other copy,
postage prepaid, to the corporation or any of the
corporation's officers or directors, using any address
obtained from the corporation's articles of
incorporation, other Corporation Commission
records, or any other source.
(k) Alternative Means of Service.
(l) Generally. If a party shows that the means of
service provided in Rule 4.1(c) through Rule 4.1(j)
are impracticable, the court may--on motion and
without notice to the person to be served-order that
service may be accomplished in another manner.
(2) Notice and Mailing. If the court allows an
alternative means of service, the serving party must
make a reasonable effort to provide the person being

A83
served with actual notice of the action's
commencement. In any event, the serving party
must mail the summons, the pleading being served,
and any court order authorizing an alternative
means of service to the last-known business or
residential address of the person being served.
(3) Service by Publication. A party may serve by
publication only if the requirements of Rule 4.1 (Z),
4.1(m), 4.2(f), or 4.2(g) are met and the procedures
provided in those rules are followed.
(1) Service by Publication.
(1) Generally. A party may serve a person by
publication only if:
(A) the last-known address of the person to be served
is within Arizona but:
(1) the serving party, despite reasonably diligent
efforts, has been unable to ascertain the person's
current address; or
(ii) the person to be served has intentionally avoided
service of process; and
(B) service by publication is the best means
practicable in the circumstances for providing the
person with notice of the action's commencement.
(2) Procedure.
(A) Generally. Service by publication is accomplished
by publishing the summons and a statement
describing how a copy of the pleading being served
may be obtained at least once a week for 4 successive
weeks:
(i) in a newspaper published in the county where the
action is pending; and
(ii) if the last-known address of the person to be
served is in a different county, in a newspaper in
that county.

A84
(B) Who May Serve. Service by publication may be
made by the serving party, its counsel, or anyone
authorized under Rule 4(d).
(C) Alternative Newspapers. If no newspaper is
published in a county where publication is required,
the serving party must publish the summons and
statement in a newspaper in an adjoining county.
(D) Effective Date of Service. Service is complete 30
days after the summons and statement is first
published in all newspapers where publication is
required.
(3) Mailing. If the serving party knows the address
of the person being served, it must, on or before the
date of first publication, mail to the person the
summons and a copy of the pleading being served,
postage prepaid.
(4) Return.
(A) Required Affidavit. The party or person making
service must prepare, sign and file an affidavit
stating the manner and dates of the publication and
mailing, and the circumstances warranting service
by publication. If no mailing was made because the
serving party did not know the current address of
the person being served, the affidavit must state
that fact.
(B) Accompanying Publication. A printed copy of the
publication must accompany the affidavit.
(C) Effect. An affidavit that complies with these
requirements constitutes prima facie evidence of
compliance with the requirements for service by
publication.
(m) Service by Publication on an Unknown
Heir in a Real Property Action. An unknown heir
of a decedent may be sued as an unknown heir and
be served by publication in the county where the

A85
action is pending, using the procedures provided in
Rule 4.1 (Z), if:
(1) the action in which the heir will be served is for
the foreclosure of a mortgage on real property or is
some other type of action involving title to real
property; and
(2) the heir must be a party to the action to permit a
complete determination of the action.

California Code, Code of Civil Procedure - CCP
§ 1913
(a) Subject to subdivision (b), the effect of a judicial
record of a sister state is the same in this state as in
the state where it was made, except that it can only
be enforced in this state by an action or special
proceeding.
(b) The authority of a guardian, conservator, or
committee, or of a personal representative, does not
extend beyond the jurisdiction of the government
under which that person was invested with
authority, except to the extent expressly authorized
by Article 4 (commencing with Section 2011) of
Chapter 8 of Part 3 of Division 4 of the Probate Code
or another statute.
Convention on the Rights of Persons with
Disabilities art. 12. Dec. 13, 2007, 2515 U.N.T.S. 3).

